<html>
<title> - OVERSIGHT HEARING ON THE IMPACTS OF CLIMATE CHANGE ON TRIBAL COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          THE IMPACTS OF CLIMATE CHANGE ON TRIBAL COMMUNITIES

=======================================================================

                           OVERSIGHT HEARING

                               BEOFRE THE

        SUBCOMMITTEE ON INDIGENOUS PEOPLES OF THE UNITED STATES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, February 12, 2019

                               __________

                            Serial No. 116-4

                               __________

       Printed for the use of the Committee on Natural Resources
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-199 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>                             
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Vacancy
Vacancy
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                
                                
                                ------                                

        SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                        RUBEN GALLEGO, AZ, Chair
                PAUL COOK, CA, Ranking Republican Member

Darren Soto, FL                      Don Young, AK
Michael F. Q. San Nicolas, GU        Aumua Amata Coleman Radewagen, AS
Debra A. Haaland, NM                 John R. Curtis, UT
Ed Case, HI                          Kevin Hern, OK
Vacancy                              Vacancy
Vacancy                              Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                               
                               
                               ------                                
                               
                               
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 12, 2019.......................     1

Statement of Members:
    Cook, Hon. Paul, a Representative in Congress from the State 
      of California..............................................     4
        Prepared statement of....................................     5
    Gallego, Hon. Ruben, a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Buzzard, Shirley, President, Building Resilient Communities 
      for Climate Extremes (BRACE) Institute, Washington, DC.....    16
        Prepared statement of....................................    17
    Johnston, Tyson, Vice President, Quinault Indian Nation, 
      Taholah, Washington........................................     7
        Prepared statement of....................................     8
    Jordan, Jennine, Government Relations Liaison, Calista 
      Corporation, Anchorage, Alaska.............................    11
        Prepared statement of....................................    13
    Jose, Verlon, Vice Chairman, Tohono O'odham Nation, Sells, 
      Arizona....................................................    19
        Prepared statement of....................................    21

Additional Materials Submitted for the Record:
    Chavarria, J. Michael, Governor, Santa Clara Pueblo, 
      testimony..................................................    35
    United South and Eastern Tribes Sovereignty Protection Fund, 
      testimony..................................................    40
                                     


 
     OVERSIGHT HEARING ON THE IMPACTS OF CLIMATE CHANGE ON TRIBAL 
                              COMMUNITIES

                              ----------                              


                       Tuesday, February 12, 2019

                     U.S. House of Representatives

        Subcommittee on Indigenous Peoples of the United States

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2 p.m., in 
room 1324, Longworth House Office Building, Hon. Ruben Gallego 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gallego, Soto, San Nicolas, 
Haaland, Case, Grijalva (ex officio), Cook, Young, and Hern.

    Mr. Gallego. The Subcommittee for Indigenous Peoples of the 
United States will come to order. The Subcommittee is meeting 
today to hear testimony on the impacts of climate change on 
tribal communities.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. This will allow us to hear from our witnesses sooner 
and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5 p.m. today or the 
close of hearing, whichever comes first. Any objections?
    Hearing no objections, so ordered.

   STATEMENT OF THE HON. RUBEN GALLEGO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Gallego. Good afternoon, and welcome to the first 
hearing of the Subcommittee for Indigenous Peoples of the 
United States in the 116th Congress.
    We adjusted the name of this Committee to emphasize our 
renewed and singular focus on the more than 2 million 
indigenous peoples that we are charged with representing. As 
the only Committee with exclusive jurisdiction over these 
issues in the House of Representatives, we have a great 
responsibility.
    As a body, this Congress can make countless improvements to 
the lives and well-being of indigenous peoples, and that starts 
here in this Subcommittee, where we will spend the coming 
months seeking solutions to address the issues these 
communities have identified.
    As a Subcommittee, we will: examine the significance of 
tribal sovereignty and self-determination; strengthen tribal 
consultation and honor our Nation's trust responsibilities; 
ensure environmental justice for tribal communities; support 
tribal control of their own lands and resources; work closely 
with tribes to identify and protect sacred sites; uphold our 
obligations to improve the health, safety, and delivery of 
justice to tribal people; and, last, ensure that all indigenous 
peoples and tribal governments are treated fairly, as co-
equals, with dignity and respect.
    We have a lot of ground to cover, and I look forward to 
working with my friend and fellow Marine, Ranking Member Cook 
(Oorah!), and the rest of my colleagues, on addressing these 
and other pressing issues.
    Today, we will focus specifically on the impacts that 
climate change is having on tribal communities. These 
communities are on the front lines of the climate change 
battle, and despite contributing almost nothing to climate 
change, they face some of the worst impacts. From floods and 
wildfire, to drought and rising sea levels, indigenous peoples 
face existential threats to their traditional way of life, 
including disruptions of subsistence hunting and fishing, as 
well as their commercial activities and tourism enterprises.
    This is especially true for tribes along coastal areas, who 
are already seeing changes in their lands, including the 
Quinault Nation, whose people live on the front lines of 
extreme weather risks, from flooding to tsunamis.
    These climate-related disasters are forcing indigenous 
communities to make some very heartbreaking choices: the Tohono 
O'odham Nation, who had to resort to FEMA for disaster support 
after hurricanes caused severe flooding; or the Newtok Village 
in Alaska, who had to choose between relocating their entire 
community or losing access to safe drinking water.
    And these are not isolated incidents. Throughout Indian 
Country, the effects of climate change are evident, and they 
are increasing at an alarming rate.
    I would like to also remind us that all the challenges 
facing tribal communities are a mere microcosm of the larger 
climate change picture and that the harms of inaction in Indian 
Country will affect us all.
    Tribes are stewards of millions of acres of trust and 
federally recognized land that provide habitat for more than 
500 endangered species, contain over 13,000 miles of rivers and 
nearly 1 million lakes. They also have stunning national 
treasures, like Antelope Canyon in my home state of Arizona, 
that provide tourism opportunities for visitors from near and 
far, but are at risk of erosion and other harms as climate 
changes. That is why it is important that we work hand-in-hand 
to overcome the collective challenges that we will face.
    Climate change is ignorant of reservation boundaries and 
treaty land maps, and yet indigenous peoples are often left to 
fend for themselves in addressing the issues that arise--and 
that is just not right. We are all in this together.
    The cultures, spiritual practices, and economies of many 
indigenous peoples have already evolved to adapt to local 
environmental changes. This knowledge, accumulated over 
generations of historical and cultural connection with the 
surrounding environment, is integral to this Committee's work.
    In my view, this makes us natural partners in developing a 
climate adaption strategy, both on tribal lands and for the 
surrounding regions. This Committee's partnership with tribes 
to address climate change and other issues affecting Indian 
Country starts today.
    To our witnesses, thank you for traveling long distances to 
share your experiences and educate this Committee about the 
impact that climate change has on your community. I look 
forward to hearing your testimony. I hope that our Members not 
only identify with your story, but also learn from you and your 
expertise as we deal with ways to address climate change head-
on.

    [The prepared statement of Mr. Gallego follows:]
 Prepared Statement of the Hon. Ruben Gallego, Chair, Subcommittee on 
                Indigenous Peoples of the United States
    Good afternoon and welcome to the first hearing of the Subcommittee 
for Indigenous Peoples of the United States in the 116th Congress.
    We adjusted the name of this Committee to emphasize our renewed and 
singular focus on the more than 2 million indigenous peoples that we 
are charged with representing. As the only committee with exclusive 
jurisdiction over these issues in the House of Representatives, we have 
a great responsibility.

    As a body, this Congress can make countless improvements to the 
lives and well-being of indigenous peoples.
    That starts here--in this Subcommittee--where we will spend the 
coming months seeking solutions to address the issues these communities 
have identified.

    As a Subcommittee, we will:

    <bullet> Examine the significance of tribal sovereignty and self-
            determination;

    <bullet> Strengthen tribal consultation and honor our Nation's 
            trust responsibilities;

    <bullet> Ensure environmental justice for tribal communities;

    <bullet> Support tribal control of their own lands and resources;

    <bullet> Work closely with tribes to identify and protect sacred 
            sites;

    <bullet> Uphold our obligations to improve the health, safety, and 
            delivery of justice to tribal people; and last

    <bullet> Ensure that all indigenous peoples and tribal governments 
            are treated fairly, as co-equals with dignity and respect.

    We have a lot of ground to cover, and I look forward to working 
with my friend and fellow Marine, Ranking Member Cook (Oorah!), and the 
rest of my colleagues, on addressing these and other pressing issues.
    Today, we'll focus specifically on the impacts that climate change 
is having on tribal communities. These communities are on the front 
lines of the climate change battle. And despite contributing almost 
nothing to climate change, they face some of the worst impacts. From 
floods and wildfire, to drought and rising sea levels, indigenous 
peoples face existential threats to their traditional way of life--
including disruptions to subsistence hunting and fishing, as well as 
their commercial activities and tourism enterprises.
    This is especially true for tribes along coastal areas, who are 
already seeing changes in their lands--including the Quinault Nation, 
whose people live on the front lines of extreme weather risks from 
flooding to tsunamis.

    These climate-related disasters are forcing indigenous communities 
to make some very heartbreaking choices:

    --like the Tohono O'odham Nation who had to resort to FEMA for 
            disaster support after hurricanes caused severe flooding

    --or the Newtok Village in Alaska, who had to choose between 
            relocating their entire community or losing access to safe 
            drinking water.

    And these are not isolated incidents. Throughout Indian Country the 
effects of climate change are evident. And they are increasing at an 
alarming rate.
    I'd like to also remind us all that the challenges facing tribal 
communities are a mere microcosm of the larger climate change picture. 
And that the harms of inaction in Indian Country will affect us all.

    Tribes are stewards of millions of acres of trust and federally 
recognized lands that provide habitat for more than 500 endangered 
species; contain over 13,000 miles of rivers and nearly 1 million 
lakes. They also house stunning natural treasures like Antelope Canyon 
in my home state of Arizona that provide tourism opportunities for 
visitors from near and far--but are at risk of erosion and other harms 
as the climate changes. That's why it is important that we work hand-
in-hand to overcome the collective challenges that we will face.
    Climate change is ignorant of reservation boundaries and treaty 
land maps. And yet, indigenous peoples are often left to fend for 
themselves in addressing the issues that arise--and that's just not 
right. We are all in this together.

    The cultures, spiritual practices, and economies of many indigenous 
people have already evolved to adapt to local environmental changes. 
This knowledge--accumulated over generations of historical and cultural 
connection with the surrounding environment--is integral to this 
Committee's work.
    In my view, this makes us natural partners in developing climate 
adaptation strategies--both on tribal lands, and for the surrounding 
regions.

    This Committee's partnership with tribes to address climate change 
and other issues affecting Indian Country starts today.

    To our witnesses, thank you for traveling long distances to share 
your experiences and educate this Committee about the impact that 
climate change has on your community.
    I look forward to your hearing testimony, and I hope that our 
Members not only identify with your story, but also learn from you and 
your expertise as we develop ways to address climate change head-on.
    I now would like to recognize the Ranking Member, my esteemed 
colleague, Mr. Cook, for his opening statement.

                                 ______
                                 

    Mr. Gallego. I would now like to recognize the Ranking 
Member, my esteemed colleague, Mr. Cook, for his opening 
statement.

 STATEMENT OF THE HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cook. Thank you very much, Mr. Chairman.
    As the new Subcommittee Republican leader, I look forward 
to what I hope will be a positive 116th Congress as we work to 
address the issues facing Native American tribes and Alaska 
Natives.
    I also want to thank the witnesses for being here today for 
this hearing.
    Access to natural resources can be a lifeline to prosperity 
and opportunity for Native communities. That is why this 
Committee has focused in previous Congresses on providing 
greater local control and autonomy to tribes to develop and 
utilize resources on Native American land.
    It is my hope that this Committee will continue along this 
path and avoid the temptation to erect barriers to responsible 
tribal resource management and use. Eliminating or sharply 
curtailing the ability of tribes to carry out resource 
extraction and development on tribal lands would be the wrong 
approach.
    These sorts of proposals would devastate tribal communities 
that have built their economies around oil, gas, and, in some 
cases, coal resources. For example, one tribe relies on coal 
mining for 88 percent of its budget and would be left destitute 
by the new restrictions on coal production and use.
    Even tribes without significant energy resources would be 
hard-hit by proposals that would increase the cost of coal, 
oil, and gas. Native Americans in the Midwest and Northern 
Plains, who already pay a lot to heat their homes, would be 
required to pay even more. Reducing the supply of reliable 
forms of energy would leave entire regions of the country 
facing energy poverty. For Native American communities who 
already face significant economic challenges, this result could 
be disastrous.
    Census figures showed the 2017 per capita income for Native 
Americans to be $19,824, compared to $32,397 for the average 
American. And the Native American poverty rate is 25.4 percent, 
versus 13.4 percent for the rest of the country.
    This Committee would do well to focus on innovative 
solutions to address pollution, promote jobs, and opportunity 
for Native Americans and Alaska Natives, and lower, not raise, 
the cost of energy in tribal communities.
    Today's question--How can we reduce pollution and promote a 
healthier environment while protecting checkbooks and job 
opportunities?
    In past opportunities, this Committee has explored and 
passed legislation providing tribes with tools to achieve 
responsible natural resource management and conservation 
objectives relating to climate change.
    One of the best tools is scientifically sound active forest 
management undertaken by tribes with substantial forestlands. 
Tribes have proven to be excellent forest managers, creating 
healthy forests and removing dangerous fuel that contributes to 
deadly wildfires and the emission of enormous amounts of carbon 
dioxide and pollutants.
    This Committee should explore why the Federal Government 
has not implemented measures enacted by Congress to promote 
tribal stewardship contracting in mismanaged or non-managed 
Federal lands.
    When it comes to climate and energy, policies that impose a 
one-size-fits-all approach would not help tribal economies, 
especially when certain forms of energy are unreliable or come 
at great cost to tribal members.
    Again, I look forward to discussing how we can find 
solutions and work together to improve the lives of Native 
Americans and Alaska Natives.
    Thank you. I yield back.

    [The prepared statement of Mr. Cook follows:]
Prepared Statement of the Hon. Paul Cook, Ranking Member, Subcommittee 
               on Indigenous Peoples of the United States
    Thank you, Chairman Gallego. As the new Subcommittee Republican 
Leader, I look forward to what I hope will be a positive 116th Congress 
as we work to address the issues facing Native American tribes and 
Alaska Natives.
    I also want to thank the witnesses for being here today for this 
hearing.
    Access to natural resources can be a lifeline to prosperity and 
opportunity for Native communities. That's why this Committee has 
focused in previous Congresses on providing greater local control and 
autonomy to tribes to develop and utilize resources on Native American 
land.
    It is my hope that this Committee will continue along this path and 
avoid the temptation to erect barriers to responsible tribal resource 
management and use. Eliminating or sharply curtailing the ability of 
tribes to carry out resource extraction and development on tribal lands 
would be the wrong approach.
    These sorts of proposals would devastate tribal communities that 
have built their economies around the oil, gas, and coal resources. For 
example, one tribe relies on coal mining for 88 percent of its budget 
and would be left destitute by new restrictions on coal production and 
use.
    Even tribes without significant energy resources would be hit hard 
by proposals that would increase the cost of coal, oil, and gas. Native 
Americans in the Midwest and Northern Plains who already pay a lot to 
heat their homes would be required to pay even more. Reducing the 
supply of reliable forms of energy would leave entire regions of the 
country facing energy poverty. For Native American communities who 
already face significant economic challenges, this result would be 
disastrous.
    Census figures show the 2017 per capita income for Native Americans 
to be $19,824 compared to $32,397 for the average American. And the 
Native American poverty rate is 25.4 percent versus 13.4 percent for 
the rest of the country.
    This Committee would do well to focus on innovative solutions to 
address pollution, promote jobs and opportunity for Native Americans 
and Alaska Natives, and lower--not raise--the costs of energy in tribal 
communities.

    Today's question: How can we reduce pollution and promote a 
healthier environment, while protecting checkbooks and job 
opportunities?
    In past years, this Committee has explored and passed legislation 
providing tribes with tools to achieve responsible natural resource 
management and conservation objectives relating to climate change.
    One of the best tools is scientifically sound active forest 
management undertaken by tribes with substantial forestlands. Tribes 
have proven to be excellent forest managers, creating healthy forests 
and removing dangerous fuel that contributes to deadly wildfires and 
the emission of enormous amounts of carbon dioxide and pollutants.
    This Committee should explore why the Federal Government has not 
implemented measures enacted by Congress to promote tribal stewardship 
contracting in mismanaged--or non-managed--Federal lands.
    When it comes to climate and energy, policies that impose a one-
size-fits-all approach will not help tribal economies, especially where 
certain forms of energy are unreliable or come at great cost to tribal 
members.
    Again, I look forward to discussing how we can find solutions and 
work together to improve the lives of Native Americans and Alaska 
Natives.

                                 ______
                                 

    Mr. Gallego. Thank you, Ranking Member.
    And I would also like to recognize our Committee Chairman, 
Congressman Raul Grijalva, who has joined us today.
    Mr. Grijalva. Thank you.
    Mr. Gallego. Thank you.
    Now, please let me introduce our witnesses for today.
    First, our original invited witness, the Honorable Fawn 
Sharp, President of the Quinault Indian Nation, was unable to 
attend due to the weather in Washington State.
    But we are fortunate that the Vice President of the Nation, 
Tyson Johnston, was already here in DC, so he will graciously 
testify in her stead.
    I will also now recognize Member Don Young for the next 
introduction.
    Mr. Young. Thank you, Mr. Chairman. I was listening to your 
opening statement, and I was going to put my name on top of it. 
I think you copied my exact words the last time I chaired this 
Committee.
    But I would like to introduce a witness, one of my 
constituents, Jennine Jordan. She is the Government Relations 
Liaison for Calista Corporation. She is an Inuit, and her 
family is from Unalakleet. I am quite proud of her efforts to 
try to bring forth messages from my Native community in the 
state of Alaska.
    I yield back.
    Mr. Gallego. Thank you.
    Next, we will be introducing Dr. Shirley Buzzard, President 
of the Building Resilient Communities for Climate Extremes 
(BRACE) Institute.
    And, finally, our last witness is the Honorable Verlon 
Jose, Vice Chairman of the Tohono O'odham Nation in Arizona.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire written statement will appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light will come on. Your 
time will have expired when the red light comes on, and I will 
ask you to please wrap up your statement.
    I will also allow the entire panel to testify before we 
question the witnesses.
    The Chair now recognizes Vice President Tyson Johnston to 
begin his testimony.
    Thank you.

 STATEMENT OF TYSON JOHNSTON, VICE PRESIDENT, QUINAULT INDIAN 
                  NATION, TAHOLAH, WASHINGTON

    Mr. Johnston. Thank you very much for the introduction and 
the opportunity to be here with you all today. I know President 
Sharp deeply regrets not being here, since she is very 
passionate about this issue.
    My name is Tyson Johnston. I am the Vice President of the 
Quinault Indian Nation. I come to you today from Washington 
State, where my tribe is located in southwest Washington. We 
are a treaty tribe, a signatory to the Treaty of Olympia of 
1856. We are also a founding self-governance tribe and believe 
in the tenets of self-governance and self-determination.
    We currently manage 210,000 acres of forest and reservation 
land. We are also an ocean-navigating people and co-manage 
natural resources in the ocean and several of our river 
systems. Our villages primarily support themselves from fishing 
income and natural-resources-related work.
    We also have taken a multi-layered approach to climate 
change, because this issue has impacted our community very hard 
and first in many different ways. We have been talking locally 
with our state partners and now here at the Federal level.
    We are a place-based people. We are deeply committed to our 
land. It is incomprehensible to think about having to relocate 
from our sacred lands that make up our identity, but because of 
climate change and the issues that face us, we have had to 
consider options.
    We have currently worked with the Federal Government to 
develop a master plan to relocate our village and essential 
infrastructure. This was funded in 2013 and fully adopted by 
the tribe in 2017, which has given us a blueprint to finally 
address the tsunami inundation zone that is up on the screen.
    [Slide.]
    We face several challenges moving to higher ground. A lot 
of this is related to funding, obviously. We have estimated, 
with our master plan, that in order to fully implement village 
relocation and the relocation of our infrastructure, it would 
cost anywhere between $150 million to $200 million.
    Also, I mentioned earlier how we are a fishing community. 
We have had to declare several fisheries disasters. The best 
science and analysis that we have been able to look at have 
been influenced by the climate change factors of the ocean 
conditions as well as the effects of terrestrial climates.
    Being so close to the ocean, the Quinault Nation is on the 
front lines of all the American people who are dealing with the 
negative effects of climate change. Ocean sea level rise has 
really increased. We have been dealing with coastal erosion on 
our coasts and have seen that really speed up these last 
several years.
    But, most importantly, I think the message I want to leave 
you with is that this is going to be affecting more people 
along the coast, and this is really our time to come together 
and think about what are the best options to protect the 
American people and set up our future generations for success.
    We have taken many efforts, painstaking efforts, to 
mitigate this at our local level as the tribe, but we don't 
have the resources to fully implement that action without the 
support of our trustee and our Federal partners. We owe it to 
our future generations to be bold, actionable, and decisive 
when it comes to addressing this issue.
    Again, I am looking forward to the questions from the 
Committee and offering expertise and support on behalf of the 
tribe to address this issue not only today but for future 
generations.

    [The prepared statement of Mr. Johnston follows:]
 Prepared Statement of Tyson Johnston, Vice President, Quinault Indian 
                                 Nation
    Good afternoon Chairman Gallego, Ranking Member Cook and members of 
the Subcommittee. I am Tyson Johnston, Vice-President of the Quinault 
Indian Nation (``QIN''). I want to thank the Subcommittee for holding 
this hearing on the impacts and challenges tribal communities face due 
to climate change. It is critically important for the Federal 
Government, as trustee to Quinault and other Tribal Nations, to examine 
this issue and work with tribal governments to address the challenges 
we face.
        climate change today on the quinault indian reservation
    The Quinault Reservation (``Reservation'') is located on the 
southwestern corner of the Olympic Peninsula of Washington State and 
abuts the Pacific Ocean. Since time immemorial, QIN has relied on the 
waters of the Quinault River and Pacific Ocean for sustenance and 
survival. The village of Taholah is the primary population, social, 
economic and government center of the QIN. It is facing imminent 
threats from potential tsunamis and potential damage from the sea level 
rising.
    QIN, as a signatory to the Treaty of Olympia (1856), has the 
reserved right of ``taking fish, at all usual and accustomed fishing 
grounds and stations.'' This federally-protected treaty right 
guarantees every enrolled Quinault tribal member--now and into the 
future--the right to harvest any and all species of fish and shellfish, 
anywhere within the QIN's usual and accustomed area in perpetuity, 
subject only to restrictions intended to conserve the fisheries.
    However, since 2015, many QIN members have experienced fish harvest 
levels that are significantly lower than they have been in previous 
years. Because of this decline, the Nation requested through the 
Department of Commerce and the National Oceanic and Atmospheric 
Administration a commercial fishery resource disaster be declared. The 
declaration was approved and QIN was awarded funding, however the 
harvest levels continue to decline because of water temperature change 
and deterioration of habit brought on by climate change. This decline 
has been nothing short of devastating for QIN as our tribal members 
depend on fishing for commercial, subsistence, and recreational 
purposes, as well as ceremonial and cultural ones.
    Our Nation has had Models prepared by the Washington Department of 
Natural Resources show a potential of tsunami inundation of 40-50 feet 
in depth in most of the Lower Village of Taholah, well above the 
elevation of the tallest building in the village. A tsunami event at 
the Village of Taholah would be catastrophic for our tribe, the loss of 
life and destruction of our infrastructure would compromise QIN 
government operations.
    Historically, large earthquake/tsunami events along the Cascadia 
Subduction Zone have occurred every 300 to 500 years. The last such 
event happened in February, 1700, so the 300-year threshold has already 
been breached. Approximately 650 residents live within the tsunami zone 
in the Taholah Village. Important Quinault social and cultural 
institutions are located in the tsunami inundation zone and flood prone 
area (including the Senior Center, Head Start Day Care, the K-12 
Taholah School, Community Center, fire cache, police station, jail and 
courts, Veterans Park, Taholah Mercantile, Fitness Center, Temporary 
Assistance for Needy Families, Housing Authority, Canoe Carving Shed, 
Enterprise Board, and the Museum, the repository of Quinault culture). 
On a typical weekday, at least 60 employees of the Quinault Indian 
Nation also work in the lower Taholah Village.
    A comprehensive 2012 report was contracted by QIN to understand the 
effects of climate change on sea levels. The report, entitled 
``Relative Sea Level Change Along Quinault Indian Reservation Marine 
Coastlines,'' found that the combined effects of thermal expansion of 
ocean waters, vertical land deformation (e.g., tectonic movements), 
melting glaciers and ice fields and seasonal water surface elevation 
changes due to local atmospheric circulation effects will result in sea 
level increases that will substantially increase flood risks in the 
Lower Village of Taholah. The report noted that the changes posed by 
climate change, including increased winter precipitation, soil 
saturation and flow into the Quinault River, will compound and increase 
the coastal flood risks to the lower Village of Taholah.
    Already, high tides, high winds and storm surge conditions have led 
to waves breaking over the seawall that protects the Lower Taholah 
Village from coastal surges. The seawall was breached in 2014, 
prompting a state of emergency to be declared. While the Army Corps of 
Engineers replaced the seawall, it is not a permanent solution. During 
minor storm events, areas around First Avenue in Taholah flood 
regularly with seawater.
    The QIN determined through multiple public processes, including a 
General Council resolution (a vote taken by the entire Tribe), that 
enabling the movement of residents, businesses, and institutions from 
the lower village of Taholah to a new Upper Village Relocation Area was 
the only solution because of these threats.
    This prioritization prompted the Nation to apply for a grant in 
2013 from the Administration for Native Americans (U.S. Dept. of Health 
and Human Services) to prepare a plan to relocate the village to higher 
ground. The grant was received and resulted in the Taholah Village 
Relocation Master Plan (``Master Plan''). The Master Plan was adopted 
by the Quinault Indian Nation Business Committee (a governing body of 
the Nation) on June 26, 2017. The NEPA Environmental Review was 
completed through the Bureau of Indian Affairs and HUD.
             the plan to relocate the taholah lower village
    The Master Plan document presents land uses, conceptual 
neighborhood layouts, design principles, suggestions for energy 
efficiency measures, preliminary development cost estimates, resilience 
measures and required zoning changes. Although the Quinault Nation 
isn't subject to state zoning requirements of the Growth Management Act 
of Washington State county (GMA), this Master Plan meets numerous goals 
and requirements of the GMA. This includes: community participation; 
concentrated development near transit lines and existing adequate 
infrastructure; encouragement of pedestrian travel; a range of housing 
choices; convenient access to services; and, water quality. The Master 
Plan was in part based on feedback received at community meetings and 
surveys. A Space Needs Assessment was compiled with input from every 
department at the Nation regarding future space needs.
    The project area governed by the Master Plan is located directly to 
the east of the existing Administration Building on land ranging in 
elevation from 125 feet to 165 feet, well above the tsunami danger 
zone. The Roger Saux Health Center is the only existing building at 
this time within the Relocation Area. The Relocation Area is 
approximately 180 acres and is accessed by two roads from the west. The 
Relocation area is adjacent to development on higher ground that is 
served by adequate infrastructure. The Master Plan provides a blueprint 
for the future village, including housing, community facilities, energy 
facilities, a K-12 school, and park areas.
    A primary goal of the Plan is to create a rural community comprised 
of residential neighborhoods around a central corridor of community 
facilities. The heart of the community will be the school, the Health 
Center, the Generations Building, a new Community Center, the Museum 
and the Mercantile. The Generations Building (Wenasgwella?aW in the 
Quinault language) will be the first building to be constructed and 
will house the Head Start, Day Care and Senior programs; these programs 
serve the most vulnerable populations and were identified by the 
community as the priority programs to relocate prior to the Plan 
starting. The new Community Center would also serve as an evacuation 
center. As part of the Plan, a schematic design was done for the 
building with oversized restrooms and showers and storage for tents and 
cots. The Mercantile is the only store in the village and serves as a 
social hub for the village. The village has been laid out so that these 
community facilities are within a 5 to 10 minute walk of each 
neighborhood. To this end, new paths have been plotted and the existing 
Wellness Program walking routes connected to the new path network. The 
paths will enable connection back to the river and the ocean that the 
residents are leaving, as well as allowing easy access to the community 
services at the heart of the new village.
    QIN expects substantial demand for housing in the Upper Village. 
The Census (2000) data indicates that during that period Washington 
State had an 8.7 percent vacant housing rate, while the QIR had a 1.8 
percent vacant housing rate. Taholah's average household size is 3.68. 
The Quinault Housing Authority maintains a housing waiting list of 
families and maintains that if more housing were developed on the QIR, 
there would be increases both in off-Reservation tribal members who 
would apply for a new home, and on-Reservation tribal members that now 
share a home that houses two or more families, would apply for 
additional housing. There are over 125 families on the waiting list. 
Thus, the Master Plan was designed to accommodate those needing to move 
to higher ground and those seeking to move back to the Reservation.
    Taholah is a rural community with limited public transportation 
options; high density residential housing would not be appropriate 
here, as it may be in larger towns. The Master Plan sought to create a 
walkable community, while retaining a rural feel and creating 
opportunities for a mix of housing types and sizes to serve the varying 
demand of residents. Each neighborhood is required to include a mix of 
unit type and lot size, so all segments of the population can be served 
throughout the Relocation process, with denser unit types and lot sizes 
closer to the center of the community (and likely bus stops) and 
density lessening toward the edges. This should allow for mixed-income 
neighborhoods. An effort has been made to include Quinault art in the 
new village and to engage Quinault artists in the integration of art 
and culture into the built environment. Low impact development for 
stormwater has been utilized to protect the salmon runs in the Quinault 
River. Resilience to disaster and sustainability have been included in 
the Plan to best determine how the concepts could be integrated 
physically into the new village.
    A conscious effort was made to tailor the Master Plan to the 
community context. The context is somewhat different than other 
municipalities around Washington. The land for the village is owned by 
the Quinault Nation--private developers will not speculatively develop 
this project; some development will be undertaken by the Housing 
Authority, but most of the housing will likely be developed by 
individual landowners. These landowners will not mass produce homes 
where strict design guidelines can be applied. In many cases families 
will be installing modular homes or simple homes where design 
guidelines might be onerous. Thus, the Master Plan does not impose such 
guidelines on residents; it merely suggests energy efficiency measures 
homeowners should consider when constructing a home. Many homeowners 
require larger lots for storage of nets and boats, as they fish for a 
livelihood. Thus, the plan supports traditional rural lifestyles.
    The Master Plan is also designed to concentrate development in 
Taholah as opposed to on scattered sites around the Reservation, 
creating a limited area of intensive rural development. The Plan 
creates neighborhoods of higher density than those developed on the 
Reservation during the past 50 years with a mix of housing, from large 
lot housing to tiny homes for those transitioning back into the 
community. This compact development will encourage pedestrian travel 
and convenient access to services in the new village.
                  moving forward with the master plan
    With completion and adoption of the Master Plan, the Nation has a 
blueprint for redevelopment of the village, safe from flooding and 
tsunamis that incorporates the vision of the community members, 
sustainable practices, culture, amenities and upgraded community 
facilities. Design has begun on the first building in the new village, 
the Wenasgwella?aW (Generations Building).
    Wenasgwella?aW will house the Senior Program and children's 
programs (Head Start, Early Head Start and Day Care). The Nation is 
also in the process of designing the first residential neighborhood of 
the Master Plan so that there is a place for residents of the Lower 
Village to relocate as soon as possible. However, the Master Plan has 
an estimated price tag of $150 to $200 million and the Quinault Nation 
will not be able to fully fund the plan. We will need assistance from 
our trustee, the Federal Government, to continue the Master Plan and to 
ensure that our citizens and government operations continue.
                               conclusion
    Again, thank you for allowing me to testify to the Subcommittee 
today on this critical issue to the Quinault Indian Nation. QIN is 
taking the necessary steps to protect our citizens from the effects of 
climate change, but we will need the Federal Government's assistance in 
doing this. I'm happy to answer any questions in person at this 
hearing.

                                 ______
                                 

    Mr. Gallego. Thank you, Mr. Vice President.
    The Chair now recognizes Jennine Jordan.

  STATEMENT OF JENNINE JORDAN, GOVERNMENT RELATIONS LIAISON, 
             CALISTA CORPORATION, ANCHORAGE, ALASKA

    Ms. Jordan. Hello, Chairman Gallego, Ranking Member Cook, 
and distinguished members of the Subcommittee for Indigenous 
Peoples of the United States.
    My name is Jennine Jordan. I currently serve as the 
Government Relations Liaison for Calista Corporation, a 
regional Alaska Native corporation. Thank you for inviting me 
to provide a village perspective in this hearing and to discuss 
how climate change has affected Newtok, 1 of the 56 villages 
within the Calista region.
    In addition to giving my statement today, I will be 
submitting additional written testimony for the record.
    I am Inupiaq, and my family is from the Native village of 
Unalakleet, a remote community of about 700 people in the 
Bering Straits region. I am a shareholder of Unalakleet Native 
Corporation, my village corporation; Bering Straits Native 
Corporation; and CIRI Corporation, my regional corporations, 
each of which were created and mandated by Congress through 
passage of the Alaska Native Claims Settlement Act of 1971, 
which settled our Alaska Native land claims. I am also tribally 
enrolled with the Native village of Unalakleet.
    I am here to tell you that climate change is affecting 
Alaska's rural communities. Erosion is the principal threat to 
the habitability of many Alaska Native villages. This is 
according to the Army Corps of Engineers.
    The Arctic Sea ice extent that protects coastal communities 
is melting, and, as a result, waves and storm surges are 
accelerating erosion. This is a report found by the Government 
Accountability Office.
    As a result of coastal erosion, my family's village, 
Unalakleet, is considered one of the vulnerable communities of 
Alaska. Unalakleet has been adapting to climate change by 
building seawalls and raising roads. In 2010, the U.S. Army 
Corps of Engineers spent more than $28 million on 
infrastructure for Unalakleet, armoring the beach with rocks 
and a gabion wall.
    Despite these efforts, my family, my cousins, and the 
neighbors in my community see the shoreline armoring being 
chipped away daily. And some folks have moved their homes from 
town to the hillside, which exemplifies a gradual relocation of 
Unalakleet to the higher hills in response to climate change.
    Throughout the state, local companies and Alaska Native 
corporations have pitched in to help communities battling 
erosion costs by climate change. Calista Corporation, for 
example, through its subsidiary, Brice, Inc., has repaired 
gabion walls and breakwater for decades for villages affected 
by climate change. We are currently doing work in St. George 
and at the Kivalina Airport in Alaska on this issue. We do this 
because we enjoy working within Alaska to rebuild communities 
in partnership with the state and Federal Government.
    Newtok, a coastal village of 350 people on the Bering Sea, 
is one of the first communities in Alaska to migrate to a new 
site 9 miles away, Mertarvik. Newtok is currently threatened by 
advancing erosion caused by the Ninglick River adjacent to the 
village. This progressive erosion plus permafrost degradation 
and seasonal storm flooding threaten the very existence of 
Newtok.
    Years of erosion studies show that Newtok must relocate 
because there is no permanent and cost-effective alternative 
for remaining at the current village site. According to the 
Army Corps of Engineers' estimates, it could cost up to $130 
million to move the whole village.
    Even though Mertarvik and Newtok are only 9 miles apart, 
relocation costs are high due to the fact that there are no 
roads connecting the two rural Alaskan communities together.
    In 2007, the state of Alaska created the Subcabinet on 
Climate Change, identifying communities in the most critical 
need of support. The Subcabinet's Immediate Action Work Group 
identified Kivalina, Koyukuk, Newtok, Shaktoolik, Shishmaref, 
and Unalakleet as six communities in peril.
    In addition, the U.S. Government Accountability Office 
identified 31 Alaskan communities that are threatened by 
climate change. Of those, 4 were considered to be dire: Newtok, 
Kivalina, Shishmaref, and Shaktoolik.
    In 2008, I conducted a housing analysis for Newtok while I 
was an intern at the Denali Commission. The housing analysis 
was a product of the Newtok Planning Group, which was formed 
with state and Federal agencies and NGOs to coordinate 
relocation for Newtok.
    These are all generally outlined in the strategic 
management plan, which is listed on the Alaska Department of 
Commerce, Community, and Economic Development's website. Many 
more specific plans are located there with information.
    Numerous Federal and state hearings and reports have also 
been conducted on the relocation of Newtok.
    Stanley Tom, the formal Tribal Administrator of the Newtok 
Traditional Council, testified on October 11, 2007, at the 
Subcommittee on Disaster Recovery outlining the steps Newtok 
has taken to move.
    But their greatest need is for housing at the relocation 
site of Mertarvik. There is such a critical housing shortage in 
Newtok today that multiple families are living in a single-
family home. The Cold Climate Research Center, a non-profit 
organization that specializes in building in Arctic climates, 
estimates the community needs a total of 105 houses in 
Mertarvik--39 more than the 66 houses standing in Newtok today.
    Newtok Village Council and the Lower Kuskokwim School 
District received $1 million in funding from the Alaska Housing 
Finance Corporation to advance construction in Mertarvik by 
2020.
    The project will construct two state-of-the-art, high-
energy-performance duplexes with solar photovoltaic panels. The 
duplexes will be the first housing constructed specifically to 
serve professional populations, including teachers, village 
public safety officers, and public health aides, in Mertarvik. 
These grants address our greatest need, which is housing.
    Alaska's rural communities lack critical access to clean 
water for drinking, sanitation, and hygiene. The people of 
Newtok have been living without water or sewer systems for 
generations, so, to address this need, the United Methodist 
Committee on Relief awarded $943,000 to Newtok to install 21 
in-home portable alternative sanitation system (PASS) units in 
Mertarvik, Newtok's relocation site. PASS units are innovative, 
low-cost alternatives to piped infrastructure that provide 
basic sanitation for handwashing, clean drinking water, and 
safe human waste disposal.
    In conclusion, Alaskan permafrost, land that typically 
stayed hard and frozen year-round, has been melting due to 
temperature increases. Larger sea storms sweep the elevated 
ocean levels over the land and cause erosion. This leaves 
residents vulnerable to the sea.
    Infrastructure threats will pose an ongoing concern for 
rural coastal communities, particularly given the high cost of 
construction in rural Alaska. Alaska is indeed on the front 
lines of climate change, and it is affecting all of our coastal 
communities.
    There is a need of Federal funds and bipartisan advocates 
to address climate change due to the Federal trust 
responsibility that the government has with its indigenous 
peoples. The funds already made available are just a drop in 
the bucket compared to the dozens of communities in Alaska that 
will eventually have to relocate due to climate change.
    Thank you very much for providing me this opportunity to 
testify on the impacts of climate change.
    [Speaking native language.]

    [The prepared statement of Ms. Jordan follows:]
  Prepared Statement of Jennine Jordan, Government Relations Liaison, 
                          Calista Corporation
    Hello Chairman Gallego, Ranking Member Cook, and distinguished 
members of the Subcommittee for Indigenous Peoples of the United 
States. My name is Jennine Jordan. I currently serve as the Government 
Relations Liaison for Calista Corporation, a regional Alaska Native 
Corporation. Thank you for inviting me to provide a village perspective 
in this hearing, and to discuss how climate change has affected Newtok, 
1 of the 56 villages within the Calista region. In addition to giving 
my statement today, I will be submitting additional written testimony 
for the record.
    I am Inupiaq and my family is from the Native Village of 
Unalakleet, a remote community of about 700 people in the Bering 
Straits region. I am a shareholder of Unalakleet Native Corporation, my 
village Corporation, and Bering Straits Native Corporation and CIRI 
Corporation, my regional Corporations, each of which were created and 
mandated by Congress through passage of the Alaska Native Claims 
Settlement Act (ANCSA) in 1971, which settled Alaska Natives aboriginal 
land claims.
    I am here to tell you that climate change is affecting Alaska's 
rural communities. Erosion is the principal threat to the habitability 
of many Alaska Native villages (USACE 2006, 2009). The Arctic sea ice 
extent that protects coastal communities is melting. As a result, waves 
and storm surges are accelerating erosion (GAO 2003, 2009). As a result 
of coastal erosion, my family's village, Unalakleet, is considered one 
of the vulnerable communities of Alaska. Unalakleet has been adapting 
to climate change by building seawalls and raising roads. In 2010, the 
U.S. Army Corps of Engineers spent more than $28 million on 
infrastructure for Unalakleet, armoring the beach with rocks and a 
gabion wall. Despite these efforts, my family, my cousins, and the 
neighbors in my community see the shoreline armoring being chipped away 
daily. Some folks have moved their homes from town to the hillside, 
which exemplifies a gradual relocation of Unalakleet to the higher 
hills in response to climate change.
    Throughout the state, local companies and Alaska Native 
Corporations have pitched in to help communities battling erosion 
caused by climate change. Calista Corporation through its subsidiary, 
Brice, has repaired gabion walls and breakwater for decades for 
villages affected by climate change. We are working currently in St. 
George and at the Kivalina Airport. We do this because we enjoy working 
within Alaska to rebuild communities in partnership with the state and 
Federal Government.
    Newtok, a coastal village of 350 people on the Bering Sea, is one 
of the first communities in Alaska to migrate to a new site 9 miles 
away, Mertarvik. Newtok is currently threatened by advancing erosion 
caused by the Ninglick River adjacent to the village. This progressive 
erosion, plus permafrost degradation and seasonal storm flooding 
threaten the very existence of Newtok. Years of erosion studies show 
that Newtok must relocate because there is no permanent and cost-
effective alternative for remaining at the current village site. 
According to U.S. Army Corps of Engineers estimates, it will cost $130 
million to move the whole village. Even though Mertarvik and Newtok are 
only 9 miles apart, relocation costs are high due to the fact that 
there are no roads connecting the two rural Alaskan communities 
together.
    In 2007, the state of Alaska created the Subcabinet on Climate 
Change, identifying communities in the most critical need of support. 
The Subcabinet's Immediate Action Work Group identified: Kivalina, 
Koyukuk, Newtok, Shaktoolik, Shishmaref, and Unalakleet as ``six 
communities in peril.'' In addition, the U.S. Government Accountability 
Office identified 31 Alaska communities that are threatened by climate 
change. Of those, 4 were considered to be dire: Newtok, Kivalina, 
Shishmaref and Shaktoolik.
    In 2008, I conducted a housing analysis for Newtok while as an 
intern at the Denali Commission. The housing analysis was a product of 
the Newtok Planning Group, which was formed in 2006 by representatives 
from state and Federal agencies and NGOs which agreed to coordinate 
relocation assistance for Newtok. The Newtok Planning Group has 
published various studies and plans are underway to move the village. 
These are generally outlined in the Strategic Management Plan--Newtok 
to Mertarvik (2012) listed on the AK Department of Commerce, Community, 
and Economic Development's website. More specific plans and much more 
information on relocating Newtok to Mertarvik is also available there. 
Numerous Federal and state hearings and reports have also been 
conducted on the relocation of Newtok. Stanley Tom, the former tribal 
administrator of the Newtok Traditional Council testified on October 
11, 2007 at the Subcommittee on Disaster Recovery, outlining the steps 
Newtok has taken to move to Mertarvik.
    The community members' greatest need is for housing at the 
relocation site of Mertarvik, Alaska. There is such a critical housing 
shortage in Newtok today that multiple families are living in a single-
family home. The Cold Climate Housing Research Center (CCHRC), a non-
profit organization that specializes in building in arctic climates, 
estimated the community needs a total of 105 houses in Mertarvik--39 
more than the 66 houses standing in Newtok today.
    This past summer, four Mertarvik homes were constructed by the 
Association of Village Council Presidents (AVCP), the area's regional 
housing authority. In summer 2019, 13 more homes are expected to be 
built in Mertarvik, bringing the total on site to 21. Securing funding 
for housing is essential to the relocation process because it will 
expedite the relocation and provide improved quality of life. For 
example, occupied housing at Mertarvik will allow the community to 
become eligible for many traditional state and Federal funding 
programs.
    Newtok Village Council and the Lower Kuskokwim School District 
received $1 million in funding from the Alaska Housing Finance 
Corporation to advance housing construction in Mertarvik in 2020. The 
project will construct two state-of-the-art high energy performance 
duplexes with solar photovoltaic panels. The duplexes will be the first 
housing constructed specifically to serve professional populations 
including teachers, village public safety officers, and public health 
aides in Mertarvik. These grants address the greatest challenge in 
Newtok's relocation to Mertarvik--new housing construction. As part of 
efforts to enable Newtok's relocation to the Mertarvik site, the Denali 
Commission is providing match funding for the award issued to Newtok 
Village Council.
    Alaska's rural communities lack critical access to clean water for 
drinking, sanitation, and hygiene. The people of Newtok have been 
living without water or sewer systems for generations. To address this 
need, the United Methodist Committee on Relief awarded $943,000 to 
Newtok to install 21 in-home Portable Alternative Sanitation System 
(PASS) units in Mertarvik, Newtok's relocation site. PASS units are 
innovative, low-cost alternatives to piped infrastructure that provide 
basic sanitation needs including hand washing, clean drinking water, 
and safe human waste disposal.
                               conclusion
    Alaskan permafrost, land that typically stayed hard and frozen 
year-round, has been melting partially due to temperature increases 
across the state. Larger sea storms sweep the elevated ocean levels 
over the land and cause erosion into the ocean. This leaves residents 
vulnerable to the sea. Infrastructure threats will pose an ongoing 
concern for rural coastal communities, particularly given the high 
costs of construction in rural Alaska. Alaska is on the front lines of 
climate change and it is affecting all of our coastal communities. 
There is a need of Federal funds and bipartisan advocates to address 
climate change due to the Federal trust responsibility that the 
government has with its indigenous peoples. The funds already made 
available are just a drop in the bucket compared to the dozens of 
communities in Alaska that will eventually have to relocate due to 
climate change.
    Thank you very much for providing me this opportunity to testify on 
the impacts of climate change in rural Alaska.
                              works cited
AK Department of Commerce, Community, and Economic Development's 
website: https://www.commerce.alaska.gov/web/dcra/
PlanningLandManagement/NewtokPlanningGroup.aspx.

GAO [Government Accountability Office]. 2003. Alaska Native villages: 
most are affected by flooding and erosion, but few qualify for federal 
assistance. Government Accountability Office, Washington, DC, USA. 
[online] URL: http://www.gao.gov/new.items/d04142.pdf.

GAO [Government Accountability Office]. 2009. Alaska Native villages: 
limited progress has been made on relocating villages threatened by 
flooding and erosion. Government Accountability Office, Washington, DC, 
USA. [online] URL: http://www.gao.gov/new.items/d09551.pdf.

USACE [U.S. Army Corps of Engineers]. 2006. Alaska village erosion 
technical assistance program: an examination of erosion issues in the 
communities of Bethel, Dillingham, Kaktovik, Kivalina, Newtok, 
Shishmaref, and Unalakleet. U.S. Army Corps of Engineers, Anchorage, 
Alaska, USA. [online] URL: http://www.housemajority.org/coms/cli/
AVETA_Report.pdf.

USACE [U.S. Army Corps of Engineers]. 2009. Alaska baseline erosion 
assessment: study findings and technical report. U.S. Army Corps of 
Engineers, Anchorage, Alaska, USA. [online] URL: http://
climatechange.alaska.gov/docs/iaw_USACE_ erosion_rpt.pdf.

                                 *****

The following documents were submitted as supplements to Ms. Jordan's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --Newtok to Mertarvik Relocation, Newtok Village Council, December 
            2017.

                                 ______
                                 

    Mr. Gallego. Thank you, Ms. Jordan.
    Now we will have Dr. Buzzard speak.

  STATEMENT OF SHIRLEY BUZZARD, PRESIDENT, BUILDING RESILIENT 
COMMUNITIES FOR CLIMATE EXTREMES (BRACE) INSTITUTE, WASHINGTON, 
                               DC

    Dr. Buzzard. I would like to just echo my colleagues, and 
thank you so much for holding these hearings and calling 
attention to this really urgent problem.
    The impact of climate change is enormous to the health and 
livelihood of many Native Americans but most urgently, as you 
can see, for those who are living on low-lying islands and 
coastal communities.
    In May 2016, Congressman Grijalva sponsored a forum on 
``Confronting a Rising Tide: The Climate Refugee Crisis.'' 
Among those invited to speak at that forum were representatives 
of the Isle de Jean Charles Band of Choctaw, a gentleman from 
the Arctic Council, and people from the Embassy of the Marshall 
Islands.
    My company, Heartlands International, which is a Native 
American-owned small business, was honored to host our visitors 
to Washington and provide them with some food and housing. So, 
we spent a lot of time with them, and they told us that they 
desperately need an intermediary organization to help them 
understand the bureaucracy and the way Washington works.
    These are people who live on disappearing islands. They are 
not equipped to deal with the intricacies of the Federal 
Government or large donors. Even taking a few days off work--
since these are mostly maritime people, just taking a day or 
two off work was a major hit to their income.
    So, they asked if we would form a non-profit organization 
that would serve as an intermediary between the groups that you 
have heard about and others to help them leverage funds, do 
reporting and accountability, and provide technical assistance 
for areas where they need it.
    In response to their request, we created the Institute for 
Building Resilient Communities for Climate Extremes, or the 
BRACE Institute, which is a 501(c)(3). Our objective is to 
provide support and technical services for the relocation of 
whole communities while keeping their cultural integrity.
    Initially, BRACE is partnering with the following 
communities, which are populations of between 200 and 1,000 
people that are going to relocate in the next 3 years: 
Primarily, we are working with the Choctaw in Isle de Jean 
Charles. We hope to be working with the Native Alaskan 
communities and also with the Quinault.
    Community relocation is a multi-sectoral problem. All of 
the communities mentioned have maritime economies, and if they 
move very far inland, they are going to have to learn new ways 
of making a living, including fish farming, greenhouse 
gardening, or other skills. As the educational level of the 
older members of these communities is marginal, they depend 
heavily on young people to lead the way.
    And the groups we have identified are only the beginning. 
As you have heard, all of the Alaskan coastal communities are 
going to have to move soon. Estimates are that there are 
already about 14 million climate refugees in the world. And 
these are people who have moved to new cities or countries as 
individuals or families because of job loss, famine, and other 
climate extremes. There is really very limited experience with 
relocating whole communities.
    Responding to this urgent need, BRACE works with partners 
in the business and labor sectors to provide technical 
assistance and research. We partner with the Laborers 
International Union of North America on housing construction, 
and they also do job-training skills in the construction 
trades.
    We have a partnership with Illinois State University in 
Normal, Illinois, to provide technical assistance in political, 
economic, social issues that come up and also in terms of the 
documentation of what is working and what is not.
    BRACE is initially targeting these low-lying islands in the 
United States, but we are learning from the Marshall Islanders 
who have moved to Springdale, Arkansas, so we understand some 
of the health and other issues that climate refugees face. Many 
of the Pacific Islands will be disappearing before long.
    We employ a classic community development approach within 
each community, which includes highly participatory methodology 
of helping people make decisions for themselves and building 
the capacity of communities to make their own decisions. We 
place emphasis on building leadership skills of young community 
members and women.
    Our multi-disciplinary approach fosters a better 
understanding of the issues in both the origin and the 
destination communities, because with community relocation, you 
need to think not only about where they live now but where they 
are moving to and what effect that is going to have on the 
destination communities.
    There are dozens of organizations working to mitigate 
climate change and postpone relocation by building seawalls or 
houses on stilts. All of these efforts are welcome, but they 
are short-term and often very costly. BRACE is the only 
organization that works with communities on total relocation 
and on the design of new green communities and with the 
assistance of learning new job skills.
    The main issues we are encountering on start up, of course, 
are funds, not only for BRACE as an institution but to the 
construction of new communities. As you have heard----
    Mr. Gallego. Dr. Buzzard, please, can we come to a summary?
    Dr. Buzzard. Yes.
    Mr. Gallego. Thank you.
    Dr. Buzzard. OK. Anyway, we are grateful to be here and 
happy to answer your questions.

    [The prepared statement of Dr. Buzzard follows:]
 Prepared Statement of Shirley Buzzard, Ph.D., President of the BRACE 
                       Institute, Washington, DC
    Many thanks to the Subcommittee on Indigenous People for calling 
attention to the effect of climate change on Native Americans. The 
impact of climate change is enormous to the health and livelihood of 
many Native Americans but most urgently for those who live on low-lying 
islands and coastal communities.
    In May 2016, Rep. Grijalva sponsored a forum on Confronting the 
Rising Tide: The Climate Refugee Crisis. Among those invited to speak 
at that forum were representatives of the Isle de Jean Charles Band of 
Biloxi-Chitimacha-Choctaw, a representative from the Arctic Council and 
a representative from the Embassy of the Marshall Islands. My company, 
Heartlands International, a Native American Owned small business, was 
pleased to host some of the visitors to Washington, DC for that event. 
In our discussions during their visit, it became clear that the people 
who live on the disappearing islands are unequipped to deal with the 
Federal bureaucracy and fundraising for their relocation. Taking a few 
days off from their work to travel to Washington, DC was a huge 
sacrifice for them and their families. The functioning of the U.S. 
government and other potential donors is bewildering to them.

    They asked Heartlands to form a non-profit with would serve as an 
intermediary for them in leveraging funds, reporting, and providing 
technical assistance to them. In response to their request, we created 
The Institute called The Building Resilient Communities for Climate 
Extremes (BRACE Institute) a 501(c)(3). Our objective is to provide 
support and technical services for the relocation of whole communities 
while keeping their cultural integrity. Initially BRACE is partnering 
with the following communities. These are all communities of between 
200 and 1,000 people that need to completely relocate in the next 3 to 
5 years:

    <bullet> The Isle de Jean Charles Band of Biloxi-Citimacha-Choctaw

    <bullet> The Alaskan communities of Shishmaref, Kivalina, Newtok 
            and Quinhagak

    <bullet> The Quinault Indian Nation in Tahdah, Oregon

    Community relocation is a multi-sectoral problem. All the 
communities mentioned have maritime economies and if they move very far 
inland, they will have to learn new ways of making a living including 
fish farming, greenhouse gardening and other skills. As the education 
level of the older members of these communities is marginal, they are 
depending heavily on young people to lead the way.
    This is only the beginning. All coastal Alaskan communities will 
have to move soon. Estimates are that there are already 14 million 
climate refugees in the world. These are people who have moved to new 
cities or countries as individuals or families because of job loss, 
famine, and other climate extremes. There is limited experience with 
the relocation of whole communities. Responding to this urgent need, 
BRACE works with partners in the business and labor sectors for 
technical assistance and job training. We partner with Illinois State 
University in Normal (ISU) to provide technical assistance and 
research. We also work with the Laborer's International Union of North 
America (LiUNA) on housing construction and jobs skills training. BRACE 
is a multi-disciplinary and global support center for communities that 
need to relocate due to climate change
    BRACE is initially targeting low-lying islands in the United 
States. We also are learning from the Marshall Islanders who have moved 
to Springdale, Alaska as to some of the health and other issues for 
climate refugees. Many of the Pacific Islands will also disappear 
before long.
    BRACE Institute employs a classic community development approach 
within each community. This includes a highly participatory methodology 
of helping people make decisions for themselves and building the 
capacity of communities to make their own decisions. We place emphasis 
on building the leadership skills of young community members and women. 
A multidisciplinary approach fosters a better understanding of the 
issues in both the origin and destination communities. The complex 
problem calls for a multifaceted solution. BRACE monitors carefully and 
documents what works as thousands of communities worldwide will have to 
relocate in coming years.
    There are dozens of organizations working to mitigate climate 
change and postpone relocation by building sea walls or houses on 
stilts. All of these efforts are welcome, but they are short-term and 
often very costly solutions. BRACE is the only organization that works 
with communities on total relocation and the design of new, green 
communities and assistance with learning new job skills.
    The main issues we are encountering as we start up are, of course, 
funds for the organization and for the construction of new communities. 
The construction of totally new communities is very costly so where 
possible we promote re-location in or near existing communities. Also, 
BRACE wants to be cautious about raising expectations and assuring that 
the communities take the lead with BRACE as a supporting partner. 
Community members know what they need to do and, in many cases, how to 
do that. The Choctaw and Quinault already have excellent designs for 
new green communities and have located land they want to purchase. They 
urgently need a support organization that can provide funding, 
management skills, and technical assistance on construction, and job 
training.
    We are very grateful to be included in these hearings. I am happy 
to answer your questions.

                                 ______
                                 

    Mr. Gallego. Thank you, Doctor. Much appreciated.
    Next is Mr. Verlon Jose from the Tohono O'odham Nation.

STATEMENT OF VERLON JOSE, VICE CHAIRMAN, TOHONO O'ODHAM NATION, 
                         SELLS, ARIZONA

    Mr. Jose. [Speaking native language.] Good day to you, 
everyone. Good afternoon, Chairman Gallego, Ranking Member 
Cook, and distinguished members of the Subcommittee.
    My name is Verlon Jose, and I am the Vice Chairman of the 
Tohono O'odham Nation, a federally recognized tribe with more 
than 34,000 members. The Tohono O'odham Reservation consists of 
more than 2.8 million acres in southern Arizona, one of the 
largest Indian reservations in the United States, and shares a 
62-mile border with Mexico.
    Since time immemorial, we have learned to live in the 
desert and have adapted to high summer heat and scarce water. 
But as climate change has begun to disrupt our traditional and 
modern ways of living, we have had to figure out ways to cope 
with these changes.
    The Nation has 41 monitoring stations on the reservation to 
measure precipitation and temperature. The Nation also took the 
proactive step of developing a climate change adaptation plan 
which examines the impacts of climate change on the Nation and 
its members and potential solutions.
    We appreciate the Subcommittee providing this opportunity 
to address climate change, which is a significant issue for the 
Nation as well as other Native people.
    As a result of climate change, it is getting hotter and 
hotter, and there is more drought across the Nation's lands 
than we have experienced in the past. Arizona is currently in a 
20-year drought. The average annual temperature is increasing, 
as shown in the 2018 Fourth National Climate Assessment and 
monitoring done by the Nation.
    The heat and the drought reduce forage for our livestock, 
food for wildlife, and the recharge of our groundwater 
aquifers. As a result of the dry soils, higher surface 
temperatures, and less vegetation, there is an increased threat 
of wildfires. And the wildfires are larger and start earlier in 
the season.
    The heat, drought, and fires put people, animals, and food 
sources at risk, impose greater costs on the Nation to ensure 
the well-being and safety of our people.
    The day-to-day impacts on our members' ability to gather 
and use traditional foods is staggering. Although we have not 
yet experienced the complete loss of traditional foods, the 
availability of these foods has been drastically impacted by 
the significant change in the average temperature that alters 
the seasonal life cycle of traditional plants. Our members go 
out to gather traditional foods and find that many are blooming 
out of season or not blooming at all as a result of climate 
change.
    As rising heat and drought continues, the Nation will 
likely face increased challenges with respect to our ability to 
store food for our members. Currently, the Nation stores food 
to distribute to members in need. However, we do not have 
enough cooling capacity to store perishable foods, and we have 
only two food distribution trucks to cover 2.8 million acres.
    In addition to high heat and drought, the Nation also is 
experiencing much more extreme weather than ever before, such 
as intense rain, severe thunderstorms, microbursts, and strong 
winds. Fifteen of our communities have been impacted by 50-year 
floods. There are four communities within the Nation where 
flooding is most severe. The Nation is very concerned that if 
we were to see a 100-year flood event, these communities would 
be completely devastated.
    We are experiencing more changes in the rain, and, while 
the annual average precipitation is less, there are shorter, 
more intense rain events throughout the year. For example, last 
fall, Hurricane Rosa dumped an incredible amount of rain on the 
reservation in a very short time. Residents of three villages 
had to move to avoid the extreme flooding. One village got 8 
inches of rain in 6 hours, and a nearby dam almost overflowed.
    Following that intense flooding of our reservation last 
year, in November 2018, President Trump issued a disaster 
declaration for the Nation to assist with recovery efforts. We 
received FEMA funds to assist with the repair of roads and 
bridges and for hazard mitigation measures to prevent further 
risk of life and property from flooding.
    The Nation's climate adaptation plan includes the following 
core strategies: use traditional building knowledge and 
practices to make homes cooler; open available community 
buildings as cooling centers during heat emergencies; plan for 
flood mitigation; hire additional wildland firefighters; ensure 
groundwater is treated for more households; and educate 
community members about climate change.
    The Nation will continue to take corrective steps to invest 
in climate change response, but the costs of addressing climate 
change are significant. Increased funding for Federal programs 
and grants focused on climate change is needed. Increased FEMA 
funding for flood mitigation and firefighter support is a must.
    The Nation and other tribal communities cannot fight 
climate change impacts alone. Congress must live up to its 
trust obligations to help provide us with the resources to 
ensure that we can protect our members, our lands, and our 
natural resources.
    The Nation sincerely appreciates the Subcommittee's 
interest in this critically important issue and the opportunity 
to share our concerns about the impacts climate change has had 
and will continue to have on the Tohono O'odham Nation.
    Climate change threatens to drastically and negatively 
impact the O'odham way of life. We are working to save it. We 
ask Congress to work together with tribal nations to address 
climate change impacts to communities throughout Indian 
Country.
    Thank you for this opportunity to testify. I welcome any 
questions you may have.
    And, last, I think if we address $30 billion to climate 
change, we might make a difference.
    Thank you.

    [The prepared statement of Mr. Jose follows:]
  Prepared Statement of the Honorable Verlon Jose, Vice-Chairman, The 
                    Tohono O'odham Nation of Arizona
                       introduction & background
    Good afternoon, Chairman Gallego, Ranking Member Cook, and 
distinguished Members of the Subcommittee. My name is Verlon Jose and I 
am the Vice-Chairman of the Tohono O'odham Nation, a federally 
recognized tribe with more than 34,000 members. The Tohono O'odham 
Reservation consists of more than 2.8 million acres in southern Arizona 
(one of the largest Indian reservations in the United States), and 
shares a 62-mile border with Mexico.
    Since the beginning of O'odham history, we have learned to live in 
the desert, and have adapted to high summer heat and scarce water. But 
as climate change has begun to disrupt both our traditional and modern 
ways of living, we have had to figure out ways to cope with these 
changes. The Nation has 41 monitoring stations on the reservation to 
measure precipitation and temperature. The Nation also took the 
proactive step of developing a Climate Change Adaptation Plan, which 
examines the impacts of climate change on the Nation and its members, 
and potential short- and long-term solutions.
    My testimony will summarize a number of those impacts and some 
potential solutions. We appreciate the Subcommittee providing this 
opportunity to address climate change, which is a significant issue for 
the Nation, as well as other Native people.
                          i. heat and drought
    As a result of climate change, it is getting hotter, and there is 
more drought across the Nation's lands than we have experienced in the 
past. Arizona is currently in a 20-year drought, and drought conditions 
persist across the Southwest. Climate change has resulted in increased 
average annual temperatures on the Nation's reservation, as reported in 
the congressionally-mandated Fourth National Climate Assessment 
completed in November 2018, and confirmed by monitoring done by the 
Nation. The increased temperatures and drought reduce the forage 
available for livestock and the sources of food for wildlife. The heat 
and drought reduce the recharge of our groundwater aquifers, and there 
is less surface water available for livestock and wildlife. 
Additionally, climate change affects the availability of traditional 
foods that our members rely upon.
    As a result of the dry soils, higher surface temperatures, and less 
vegetation, there also is an increased threat of wildfires--and the 
wildfires are larger and start earlier in the season. The heat, drought 
and fires put people, animals and food sources at risk--and impose 
greater costs on the Nation to ensure the well-being and safety of our 
people. For example, many of the Nation's members used to open the 
windows at night to keep their homes cool. But with the hot 
temperatures extending long into the night our members now need to keep 
air conditioning units on throughout the day and night in order to keep 
the temperature in their homes at safe levels. This results in 
increased electricity costs for individual members. The Nation also 
incurs additional costs as we work to ensure the safety of our members 
who may not be able to afford air conditioning units. Traditionally, to 
cope with intense daytime heat the O'odham people constructed wattos--
open-air shade structures with dirt floors, which we would wet 
throughout the day. As part of our Climate Change Adaptation Plan, the 
Nation is currently exploring a return to some of our traditional 
building practices in order to reduce the cost of air conditioning 
during the hottest months.
    In addition, the day-to-day impacts of increased heat and drought 
on our members' ability to gather and use traditional foods is 
staggering. The Nation has been increasingly creating and implementing 
programs to encourage O'odham people to return to a traditional diet in 
order to improve health. However, returning to a completely traditional 
diet is next to impossible because of the damage done to our 
traditional food sources as a result of climate change. Although we 
have not yet experienced the complete loss of traditional foods, the 
availability of these foods has been drastically impacted by 
significant changes in the average temperature that alters the 
phenology, or the seasonal life cycle, of traditional plants. Our 
members go out to gather traditional foods and find that many are 
blooming out of season or not blooming at all as a result of climate 
change.
    Additionally, as rising heat and drought continue, the Nation will 
likely face increased challenges with respect to our ability to store 
food for members needing food assistance. Currently the Nation stores 
food to distribute to members in need. However, we do not have enough 
cooling capacity to store perishable foods and we have only two food 
distribution trucks to cover all 2.8 million acres. Rising heat and 
drought will only compound the challenges that we face in storing 
adequate food for distribution to our members.
                    ii. extreme weather and flooding
    In addition to higher heat and drought, the Nation also is 
experiencing much more extreme weather than ever before, such as 
intense rain and severe thunderstorms, microbursts and strong winds 
(called jecos). Fifteen of our communities have been impacted by 50-
year floods. In many cases, when these areas flood throughout the year, 
the flood waters come straight up to the doorways of our members' 
homes. There are four communities within the Nation where flooding is 
most severe, including Santa Rosa Valley, Menager's Dam, Chui Chu 
Village, and Vamori Village. The Nation remains very concerned that if 
we were to see a 100-year flood event these communities would be 
completely devastated.
    We are currently experiencing much more variability in rain, and 
while the annual average precipitation is lower and the rainstorms are 
fewer, there are shorter, more intense rain events throughout the year. 
For example, last year Hurricane Rosa dumped an incredible amount of 
rain on the reservation in a very short time. Residents of three 
villages had to move to avoid the extreme flooding. In one location a 
berm broke as a result all of the rain, and about 3 feet of water swept 
through the village. Another community got 8 inches of rain in 6 hours. 
That community is located near a dam, which came very close to 
overflowing--luckily it did not, but if it had it would have destroyed 
the village.
    The intense rain events and increased flooding also wash out roads 
and strand communities: residents, school buses, and emergency vehicles 
are cut off from the homes by the flood waters. These extreme weather 
events put people, homes and other infrastructure at risk. Following 
the intense flooding of our reservation last year, in November 2018 
President Trump issued a disaster declaration for the Nation to assist 
the Nation with recovery efforts. Funds from the Federal Emergency 
Management Agency (FEMA) were transferred to the Nation to assist with 
the repair of public facilities such as roads and bridges as well as 
hazard mitigation measures to prevent long-term risk to life and 
property due to the flooding.
                        iii. potential solutions
    As I noted in my opening remarks, the Nation has created a Climate 
Change Adaptation Plan to begin to focus on how we can mitigate the 
impacts of climate change. The plan includes the following core 
adaptation strategies: (1) use traditional building knowledge and 
practices to make homes cooler; (2) open available community buildings 
as cooling centers during heat emergencies; (3) plan for flood 
mitigation; (4) hire additional wildland firefighters; (5) ensure 
groundwater is treated for more households; and (6) educate community 
members about climate change.
    To respond to extreme storms and flooding, we need to continue to 
do floodplain mapping and create inundation maps for all dams and 
levees. The U.S. Army Corp of Engineers has analyzed several areas 
prone to flooding on the Nation and has offered potential solutions, 
including a reconnaissance report to reduce flooding in the Santa Rosa 
Valley and a feasibility study for potential flooding in and around 
Chui Chu village. The Nation is working on implementing these steps. 
The Nation is also identifying areas for drilling and aquifer testing 
to accurately quantify groundwater resources on our reservation. 
Additionally, the Nation is facilitating the development of an 
environmental trust fund to assist with covering the costs of 
mitigating climate change impacts.
    With respect to addressing impacts from heat and drought, we have 
created a Nation-wide agricultural plan to attempt to ensure the 
survival of traditional foods and provide these foods to our members. 
Measures include seed-banking of traditional plants, expanding food-
crop acreage, finding better ways to get water to crops, and enhancing 
the Nation's food-distribution infrastructure. The Nation has 
undertaken the long-term inventory and monitoring of wild food plants. 
We also have implemented a Nation-wide program to check on elderly and 
ill members of our communities during the increasing number of extreme 
heat events. Additionally, the Nation is developing a volunteer 
firefighter program to increase the number of firefighters available to 
fight fires caused by extreme drought and heat.
    Although the Nation will continue to take proactive steps to invest 
in climate change response, the costs of addressing climate change are 
significant. Increased funding for Federal programs and grants focused 
on climate change solutions and response is needed, including, for 
example, increasing FEMA grant funding for flood mitigation, hazard 
mitigation, mitigation planning, fire prevention and firefighter 
staffing, support and training, and providing funding for BIA climate 
resilience programs to support tribal adaption planning and training. 
The Nation and other tribal communities cannot fight climate change 
impacts alone. Congress must live up to its trust obligations to assist 
in providing tribal governments with the resources to ensure that we 
can protect our members, our lands, our natural resources and our 
tribal economies from the impacts of climate change.
                               conclusion
    The Nation sincerely appreciates the Subcommittee's interest in 
this critically important issue, and the opportunity to share our 
concerns about the impacts climate change has had and will continue to 
have on the Tohono O'odham Nation. Climate change threatens to 
drastically and negatively impact the O'odham way of life and we are 
working to save it. We ask that Congress work together with tribal 
nations to address climate change impacts to communities throughout 
Indian Country. Thank you for this opportunity to testify, and I 
welcome any questions you may have.

                                 ______
                                 

    Mr. Gallego. Thank you, Mr. Vice Chairman.
    The Chair will now recognize Members for questions. Under 
Committee Rule 3(d), each Member will be recognized for 5 
minutes.
    I will start by recognizing our overall Committee Chair, 
Chairman Raul Grijalva, for the first questions.
    Mr. Grijalva. Thank you very much to all the witnesses.
    And, indeed, Mr. Chairman, thank you for the hearing, and 
the members of this Subcommittee. It is historic, having a 
discussion about something that is with us already in many 
parts of Indian Country and certainly looming as an issue that 
has to be dealt with. So, I want to thank you, Mr. Chairman and 
the Members, for having this hearing, and the Ranking Member.
    Let me ask Vice President Johnston and Vice Chairman Jose a 
question that was alluded to in both your comments. The trust 
responsibility, the consultation, the responsibilities that the 
Federal Government has to tribes--and this is for both of you--
how is that relationship with respect to this particular issue 
working? Or what does it need to work better?
    If you don't mind, we will start with you, Mr. Vice 
President.
    Mr. Johnston. Thank you for that question.
    When my ancestors signed the Quinault River Treaty of 1855 
and later the Treaty of Olympia of 1856, they did that with the 
thought that our resources and our access to them would be in 
perpetuity forever to take care of their families, the coming 
generations. That was their wisdom when they sat in those 
councils to create those terms.
    And now, because of the issues that we face because of 
climate change and the crisis that our communities are 
suffering, a lot of those treaty rights are at risk.
    I think with a lot of Federal agencies that we work with 
there is inconsistency about that trust relationship. Some of 
them, I think, work or are touched by that issue more often. 
Working with the Bureau or even working with organizations such 
as NOAA, they are educated, to a degree, on what the trust 
relationship looks like.
    I think what would help improve that is if there was 
consistency across the board, if all of the agencies somehow 
had that mandated as something that legally they need to 
understand what that relationship should comprise.
    I think that the trust relationship could always be better. 
You know, it is a two-way street. It is something that is 
living and is forming even today in the discussions that we are 
having in this room.
    But I think from where I am sitting, from the emergency 
perspective, dealing with this issue, it is the consistency and 
the lack of understanding one agency has over the other.
    Mr. Grijalva. Thank you very much.
    Mr. Jose?
    Mr. Jose. Thank you for the question.
    Trust responsibility. I have been looking for that 
definition for a long time. I think it is a matter of 
interpretation, as the Tohono O'odham Nation and, I believe, 
many other nations--we are not looking for handouts, we are 
looking about positive collaboration and working together.
    As indicated in my testimony, we have taken some proactive 
measures to address climate change. What tribal nations need 
when it comes to trust responsibility is a true seat at the 
table. I have often asked that question when measures are taken 
here in Congress: Who have you consulted? And the response is 
usually, ``Oh, we have our experts who have studied this and so 
forth.''
    One of the things that I always say is that, well, your 
experts have never consulted with our experts. Those are the 
ones that are living there that face these issues.
    This is man-made, this is caused climate change. We really 
need to take a proactive measure at that and assist, as I 
indicated in my testimony, about addressing the issues, even to 
include wildland fires. We are more reactive than proactive.
    So, trust responsibility needs to be improved, have the 
Nation have a seat at the table, have the boots on the ground, 
consult with the people in the area that is affected or of 
concern.
    Thank you for the question.
    Mr. Grijalva. Thank you.
    Ms. Jordan, the cultural impacts of climate change on 
Alaska Native communities, part of the question.
    The second part is, is climate change in Alaska a myth or 
is it part of reality there?
    So, both those questions, if you don't mind.
    Ms. Jordan. Thank you, Congressman Grijalva.
    Traditionally, Alaska Native people were nomadic. We were 
nomadic tribal people. And due to government policies with 
boarding schools in particular in Alaska, we had to make our 
communities permanent so that we could send our children to 
school. Now we cannot just get up and move like we did in the 
past when we were nomadic.
    Climate change is affecting our subsistence hunts. Many 
Alaska Natives rely on subsistence foods instead of processed 
foods, such as seal, fish, whales, et cetera. When the ice is 
melting, we see that there is a decline in some of these 
populations, which affects what we eat.
    With respect to your second question, yes, we are 
definitely seeing climate change in Alaska. It does exist. We 
see it every day in our coastal communities.
    My aunt's house in Unalakleet was flooded just a couple 
years ago because the sea level is rising. It is flooding 
houses and destroying houses. And my aunt's house isn't even on 
the shore of Unalakleet.
    So, it is changes in the sea. We absolutely see it.
    Mr. Grijalva. Thank you. And thank you for your indulgence, 
Mr. Chairman. I appreciate it and yield back.
    Mr. Gallego. Thank you, Chairman.
    I would like now to yield to Member Don Young of Alaska for 
questions.
    Mr. Young. Thank you, Mr. Chairman. I only have two 
questions.
    Jennine, what is the responsibility--and I think it was 
alluded to, the trust relief--but what is the responsibility of 
the Federal Government in helping the communities in Alaska, I 
think there are six now, that have to be relocated? What will 
be our responsibility?
    Ms. Jordan. Well, we would say that it is a Federal trust 
responsibility with our Alaska Native communities.
    These six communities that are considered dire are going to 
need funding. And, as Mr. Johnston mentioned, there is a lack 
of coordination between Federal agencies on funding and who is 
going to spearhead funding initiatives.
    Housing is an issue in Alaska, to move our communities. And 
Alaska Native communities can't receive Federal funding with 
respect to the Stafford Act. It is based on singular events 
like earthquakes and hurricanes, not slow-moving disasters 
caused by climate change. This does not fit into the Stafford 
Act. Therefore, Alaska Native communities don't qualify for 
Federal disaster funds.
    So, I would recommend a Federal agency right now that can 
address climate change refugees in Alaska. Mertarvik does not 
qualify for many state and Federal agency funds because of 
housing. And entities that provide housing grants and energy 
initiatives won't provide those until sanitation facilities are 
built. So, having a coordinated effort so that there is not the 
chicken before the egg.
    We have the Denali Commission, which helped substantially 
in the past with infrastructure in Alaska. And that, 
unfortunately, has not been funded, although it did get funded, 
I believe, $15 million a few years ago, which was used for 
Newtok. But the Denali Commission really did spearhead the 
effort to put infrastructure and help our rural communities, 
and, unfortunately, there is no funding for it right now.
    Mr. Grijalva. Good point.
    Mr. Young. Thank you, Jennine. Mr. Chairman, I would say 
one thing. We ought to, if anything we do, consider a funding 
program to make sure that we do address this issue, because, 
very frankly, it is not the Alaska Natives' responsibility or 
their blame.
    And I don't know how many have been up there. The erosion 
is bad. And we might do a little better if we took a lot of 
this money that we have for meetings and discussions and 
everything else and put it into really solving the problem and 
adapting to it. I mean, we might want to think about that too.
    With that, I yield back to the gentleman. Thank you.
    Mr. Gallego. Thank you, Representative Young. Duly noted.
    Now I would like to recognize Congresswoman Deb Haaland 
from the great state of New Mexico.
    Ms. Haaland. Thank you, Chairman, for yielding and for 
convening this important hearing.
    Thank you, Vice Chairman Jose, Vice President Johnston, Ms. 
Jordan, Dr. Buzzard, for taking the time to be here today to 
help Congress understand how climate change is affecting tribal 
communities.
    As I said yesterday in my response to the State of Indian 
Nations address, I am committed to protecting our sacred lands, 
addressing climate change, and moving renewable energy forward 
so we can pass our natural treasures down to our children.
    I believe it is essential that we focus on environmental 
justice as we make this transition to reduce our carbon 
footprint, because all too often, the communities that are most 
impacted by our changing climate are the communities that are 
least responsible for causing the problem and the least well-
equipped to adapt to the changes.
    I have a question for you, Vice Chairman Jose. The Tohono 
O'odham Nation is having an especially difficult time securing 
the Federal funding it needs to respond to the devastation of 
Hurricane Rosa. This systematic breakdown follows a pattern set 
by Hurricanes Katrina, Maria, and so many others in which 
under-represented groups bear the brunt of natural disasters.
    Can you speak to the financial burden climate change has 
put on your community or tribal communities in general?
    Mr. Jose. Thank you, Congresswoman Haaland.
    I am not sure if we can actually put a financial amount on 
the burden that it has on our people when it comes to climate 
change. It is changing a way of life. It is changing our 
traditional practices. Our traditional foods are off course, 
and causes a lot of challenges to us due to our health, due to 
our medicinal purpose and so forth.
    With Tropical Storm Rosa, the Nation spent over $4 million 
just addressing that. And even though there was a Presidential 
Declaration, we all know that that doesn't cover the entire 
amount that we spent that we could have used for health, 
education, housing, infrastructure, and so forth.
    So, when it comes to funding, I can't even begin to put an 
amount. And how do you put a price on changing someone's way of 
life? It is an enormous cost and burden to not only the Tohono 
O'odham Nation but tribal communities and the country in 
general, the world in general.
    So, I think we really need to be proactive and address 
those things proactively rather than reactively. And, as I 
said, if there is an intent to spent $30 billion on something, 
why don't we put it to something that is proactive in 
addressing the challenges of climate change?
    Thank you.
    Ms. Haaland. Thank you very much, Vice Chairman.
    I yield back my time, Mr. Chairman.
    Mr. Gallego. Thank you.
    I now recognize Ranking Member Cook.
    Mr. Cook. Thank you very much, Mr. Chairman.
    I am sorry Congressman Young had to leave, because he has a 
lot of experience, obviously, with the tribes and the weather 
and everything else. He told me one time that he only will 
shave when it rains for 3 days in a row. Whether that is 
climate change or not, I don't know.
    But I am concerned about this partly because I have a 
number of tribes in my area, in Southern California. And, of 
course, our big disasters that we are worried about are fires. 
You have heard the news. And everybody has problems--we don't 
have a flooding problem, because I am out in the desert, but 
flooding from the oceans, we do have flooding. Right now, we 
have had a lot of rain, this and that.
    I am unlike, perhaps, some of my colleagues. I don't 
understand the whole thing. I am always looking for data on how 
it applies.
    But I have to be honest with you. As a former mayor, I am 
going to be--I have a deficiency in my community that perhaps 
puts some of my citizens or tribal members in danger or affects 
their economy. I am going to be trying to get money or funds 
for that. That is the only way we are going to solve that 
problem.
    And, of course, this is where you have flood-control 
projects. This is where you have the thinning of perhaps some 
of the forests so we don't have the fuel.
    Part of the reason my statement had that thing in there, I 
am always going to go back. I am committed to changing what has 
happened in the past. The tribes have so much poverty and 
everything else, and now they are being hurt even more.
    So, that being used as an incentive--I will call on, I 
don't know, any of you. But I will ask Ms. Jordan whether, if 
we created certain funds for whether it is called climate 
control or what have you, but certain economic factors where we 
could have a superfund, where we could at least--we know that a 
dam has to--or that is a bad word, but some kind of thing where 
you control certain rivers that don't wipe out settlements or 
villages or anything else. And I always was looking for a 
certain fund, because I hate to use the term a ``rainy-day 
scenario,'' but I think even more so than other peoples, 
because of past history, something like that that could be used 
for these emergencies, however they are caused.
    Can you comment on such a radical solution, perhaps, Ms. 
Jordan?
    Ms. Jordan. Thank you, Ranking Member. I appreciate the 
question. And I absolutely think that there should be a fund or 
an agency that can address and take on climate change directly.
    Unfortunately, with the example of Newtok moving to 
Mertarvik, many of the funds--the estimates were $130 million 
with the Army Corps of Engineers. And I have done some math, 
and about $46 million has been spent just to start the project 
of moving over to Mertarvik. But that is just a drop in the 
bucket.
    They try to get funds from the Denali Commission. You heard 
in my testimony that they were trying to get funds from a 
church for sanitation purposes. They tried to apply for funds 
through the Stafford Act. They were actually denied FEMA funds.
    So, I absolutely agree.
    Mr. Cook. And do you think the Federal Government has been 
slow in declaring this a national emergency or crosses that 
threshold so we could get money for these projects?
    In other words, if I am hearing this right, you want to see 
if this Committee can use its power to expedite some of these 
occurrences, to get the money and funds, because somebody 
referred to the red tape and the bureaucracy. I am not trying 
to put words in your mouth, but I am just trying to gauge----
    Ms. Jordan. Absolutely. Correct. Yes.
    Mr. Cook. OK.
    I see the gentleman wants to answer, so if the Chair will--
--
    Mr. Gallego. I yield more time, 2 more minutes.
    Mr. Johnston. Thank you for the opportunity to respond.
    Thank you for the question, Mr. Cook.
    Earlier, when you gave your opening statement, I believe 
you said one-size-doesn't-fit-all. And I think when you think 
of our tribes in the United States that have a special 
relationship with the United States, one-size-doesn't-fit-all. 
And if we had an opportunity to access a program like you 
mentioned that promotes self-determination and self-governance, 
that allows us to really design what that would look like in 
our community, that would be most helpful, because we know our 
communities best.
    Mr. Cook. Thank you.
    And I just want to comment, I am on your side on this. God, 
I hope I am not on TV, but I kind of hate the Federal 
Government, OK? And I worked for it for 26 years. I guess I am 
working for it again.
    But I think everybody on the panel just wants to cut 
through the red tape when we have something like--and I am 
looking for solutions, funds, or what have you. Because I look 
at that poverty line, which has been contributed to--well, 
because of past history, and I want to correct it.
    I know we are asking you questions, but you people are a 
lot smarter than I am. And anytime you have a solution on 
this--I mean, it is going to be huge. But if we can cut through 
that crap that is, ``Well, you have to submit this document and 
5,000 pages of this before we correct this, this, and this''--
and I think a lot of us here, even though we are different 
parties, we are looking at ways to help the people that we 
represent. And I will be honest with you, you are the experts.
    I yield back because I am out of time.
    Mr. Gallego. Thank you, Mr. Cook.
    I now recognize Mr. Case from Hawaii.
    Mr. Case. Thank you, Chair and witnesses.
    As this is the first meeting of this Committee, my 
Subcommittee members, I bid you ``aloha'' from the Native 
Hawaiians, the indigenous peoples of Hawaii, the indigenous 
peoples just as are you and as are the Native Americans and the 
Alaska Natives and the residents and indigenous peoples of my 
colleague to my right.
    The Native Hawaiians, as with all indigenous peoples, were 
highly sensitive to the changes in our environment, in our 
weather, to the seasons. They could detect short-term, long-
term changes and make adjustments. The Native Hawaiians in 
Hawaii had a highly sustainable culture of hundreds of 
thousands without any imports from the outside world, since 
they knew nothing of the outside world, other than for the 
ancestral lands to the south. And they survived and prospered 
for generations and generations by careful land and resource 
management.
    They had a system of land management in which the land 
divisions stretched from the top of the mountains out into the 
fisheries in kind of pie-shaped structures all the way around 
the islands. And, in that way, each of those divisions was able 
to manage, from the uplands through the harvest lands and out 
into the ocean.
    And I can tell you in no uncertain terms--and you know this 
for yourselves--that, had we been back in the situation of 
climate change 300 years ago, with the kind of rapid change in 
our climate and with our atmospheric changes and with the ocean 
changes, the Native Hawaiians would have detected changes in 
the ocean temperature, they would have detected changes in the 
fisheries, in the corals, they would have detected a different 
growing season, they would have detected changes in the upland 
forests and the birds, and a sustainable take from all of that. 
They knew these things, as you did, and they would have--
although maybe they wouldn't have understood the science as we 
understand it--they would have made adjustments.
    And I ask you this question in that spirit. And I am going 
to just focus with you, Vice President Johnston, because you 
are talking about the ocean resources. In Hawaii, we 
particularly worry about--we have changes in our ocean 
temperature; we have changes in our coastlines; we have erosion 
on our coastlines; we have changes in our forests, causing our 
native birds to adjust their habitat, adjust their habits; and 
we definitely have changes in our fisheries. And we are trying 
to find the ways to manage our fisheries, not only through 
over-exploitation but through the impacts of climate change on 
temperature, on the feeding relationships from predators on 
down.
    So, I ask you this, Mr. Johnston. You spoke a little bit 
about this, but in the management of your ocean resources, 
what, if anything, have you noticed in the last decades that 
you now may attribute to climate change in terms of the changes 
in your fisheries? Do you have control over your fisheries? And 
what are you doing about it from a management perspective?
    Mr. Johnston. Thank you so much for that wonderful 
question.
    The Quinault Indian Nation has adjudicated treaty rights 30 
miles out on the west side of the border into the ocean. And we 
have noticed, even in this last decade, just a high increase of 
temperature.
    And this increase of temperature has allowed an influx of 
different things that we have been seeing--invasive species, 
deepwater fish being in our area that we haven't seen before. 
We have seen domoic acids rise in our shell beds for our clams, 
for our different shellfish that we access.
    We have seen these changes happen at that macro level. And 
even working with our partner agencies and the Federal 
Government, we have been able to see conditions that are just 
not conducive to our fish going out into the ocean and coming 
back and spawning. It has been some of the worst ocean 
conditions that we have ever witnessed.
    We have had to declare two fisheries disasters within the 
last two decades. One was more recent, in 2015. We actually 
just are mulling over the thought of calling in for another 
fisheries disaster for our prized blueback salmon that go into 
our Quinault River, a subspecies of sockeye.
    Mr. Case. Under your treaty rights, do you have the power 
to manage your fisheries in that way? Do you have full 
discretion over how you manage?
    Mr. Johnston. We have full discretion in a co-management 
relationship with the state of Washington. And that is 
something that we perfected since the U.S. v. Washington Boldt 
decision.
    But this has just become a new way of living, with these 
new conditions. We are looking out for the best science but 
also calling on our partners that work with us at the state and 
Federal level to honor the indigenous history, knowledge, and 
science that we possess in parity with theirs.
    Mr. Case. Thank you very much.
    Mr. Gallego. Since we have nothing coming from my right-
hand side, we will move to Representative Soto for his 
questioning.
    Mr. Soto. Thank you, Mr. Chairman.
    And thank you all for coming today.
    One of the primary functions of this Committee is, I have 
always believed, to make sure to provide justice for so many 
indigenous peoples throughout the United States and really to 
right the wrongs as best we can that have happened throughout 
American history.
    And when it comes to climate change, one of my biggest 
concerns relates to our history, that so much of the fertile 
land was stolen over the course of centuries. And many of our 
Native American tribes are on lands in areas that are more 
vulnerable to climate change as a result of that tragic and 
unfortunate history that we have to come to grips with today, 
and not just today but in the past and now in the future. 
Whether it is desert or tundra or islands or mountainous 
regions or low-lying regions, so much of the areas that we are 
talking about are more affected, more vulnerable to climate 
change than other lands throughout the United States.
    I do have some hope in the fact that we will have a 
trillion-dollar infrastructure package that hopefully we will 
pass out of this Congress with bipartisan support.
    I guess my biggest question to each of you would be: If we 
were to include one specific project, major project, in this 
package to help you all combat climate change for your 
community, what would that project be?
    And we will start from left to right, starting first with 
Vice President Johnston.
    Mr. Johnston. I think the one thing we would ask for is the 
continued support in funding of our relocation efforts. We have 
put thousands of man-hours, dollars, Federal grants, to develop 
what a master plan would look like to revision our communities, 
so the ability to implement that effectively, on the ground, 
driven by our community and our Nation's need, would be the ask 
that I would make.
    Mr. Soto. Thank you.
    Ms. Jordan?
    Ms. Jordan. Thank you.
    I would echo that funding is absolutely something that we 
need for our communities.
    As I mentioned in my testimony, there are many Alaska 
Native villages that are seeing the real effects of climate 
change right now. It is just right out their door, literally, 
the ocean.
    So, having a coordinated funding approach with a process in 
place that acknowledges that there are so many communities in 
need would be what I would ask for.
    Mr. Soto. And then, Dr. Buzzard, overall, what would you 
recommend----
    Dr. Buzzard. I strongly support what the previous speakers 
have said.
    I think the challenge is making access to those funds easy. 
Because, as I said before, many of the tribal communities don't 
know how to access Federal funds or don't really want to get 
into the whole proposal-writing business. So, I think having an 
intermediary organization that can parcel out those funds, be 
sure that they are used correctly, and provide assistance where 
they need it, I think that is a fabulous idea.
    Mr. Soto. And the current departments in place to do that 
aren't able to accomplish that function?
    Dr. Buzzard. I think we have already heard there is so much 
overlap and contradiction in Federal agency rules and 
regulations. All of that needs to be simplified and made much 
more accessible to small communities.
    Mr. Soto. Thank you.
    And Vice Chairman Jose?
    Mr. Jose. Congressman, thank you for the question.
    I believe and echo the sentiments of the other witnesses 
here, and also echo and thank Ranking Member Cook about 
developing a superfund of some sort to cut the red tape out, as 
was stated earlier. I believe not only tribal communities, but 
communities and cities across America, want to address this. 
But the lack of resources, the lack of funding to do some of 
these things is a two-way street. It is not for the government 
to solve all--but it is for the people to step up and address 
that, but there needs to be a better system to do it.
    There needs to be a better system so the individuals, the 
communities can address those funds and use them. Because, too 
often, people put resources available, but they don't know how 
to fix the problem because they are not actually there. And 
that is why I mentioned a seat at the table, to really have 
true consultation on how to address those things. Funding needs 
to be available to take proactive measures to address climate 
change.
    Thank you for the question.
    Mr. Soto. Thank you all for your input.
    Mr. Gallego. Thanks to all the witnesses.
    And, Dr. Buzzard, I have a question. You stated in your 
testimony that community relocation is a multi-sectoral 
problem. Please expand on that and what it means to relocated 
communities.
    Dr. Buzzard. Yes, relocation is a multi-sectoral thing.
    You have the economic issues of new jobs or retraining for 
jobs. You have political issues of sovereignty. If you are 
moving into an existing city, are you going to be a little 
reservation or what? Or, of course, when you get into things 
like the Pacific Islanders that are trying to buy land in 
Australia, what kind of sovereignty are they going to have? Are 
they going to be reservations? There are a lot of issues about 
sovereignty and political issues as these relocate.
    There are psychological problems, because relocation is 
hardest particularly for the older people who are used to 
traditions and customs, and all of a sudden they aren't able to 
do those. And they are exposed to a lot of cultural change, 
shock.
    There are health issues. The people who are most affected 
by relocation are usually the women, disabled people, and 
elderly.
    So, one of the reasons we partner with the university is 
that we can get technical assistance or we can get research to 
bring to bear on how to minimize these things from all 
directions.
    But it is not just a simple thing of packing up and moving. 
There are a lot of other external issues.
    Not to mention the relationships with the destination 
community. Because if you start bringing in people, foreigners, 
and plunking them down in an existing town, you can create all 
kinds of problems. We have been doing some research with the 
Marshall Islanders in Springdale and trying to look at how that 
has affected the situation in Springdale.
    But, yes, it is complicated, and it is not a simple thing.
    Mr. Gallego. Thank you, Doctor.
    A question for Vice Chairman Jose.
    After the most recent flooding on the Reservation, a 
disaster declaration was issued by the Administration and FEMA 
funds were made available to the Nation. And I think you kind 
of hit on this before.
    Were these a sufficient amount of funds in terms of being 
able to rebuild the roads and land previous to the state before 
the flooding? Were there enough funds actually to take care of 
the problems, essentially?
    Mr. Jose. Chairman Gallego, Ranking Member Cook, 
distinguished members of the Committee, there are never enough 
funds.
    There was never enough funds in the beginning. And that is 
why some of these disasters are very severe, because of lack of 
maintenance on waterways and roads that were already in 
deplorable conditions. And when you have the amount of water 
and rain that hit the Tohono O'odham Nation in such a short 
time, the roads were easily destroyed.
    The berms, the levees that were there to divert water were 
totally destroyed because of lack of maintenance. And with 2.8 
million acres of land, it was challenging for us to address 
those things because of lack of resources, equipment, manpower, 
and so forth.
    So, to answer your question, we didn't get--and you know 
that in any declaration, you don't get 100 percent of what you 
spend there. So, no, there wasn't enough.
    And I think that, in order to address that again 
proactively--had we been addressing it all along, I think we 
could have mitigated some of the devastation that happened when 
you have 3, 4 feet of water and mud coming into your homes.
    Mr. Gallego. Excellent.
    Do we have any other questions for our panel?
    Mr. Case, sure.
    Mr. Case. Thank you.
    Let me ask a question that is going through my mind that 
may well be a difficult question.
    We are talking here about climate change, which is an 
international issue. It really calls for international action, 
national action, local action, action right across the board. 
It is impacting everybody.
    And we had testimony in another subcommittee of this 
Committee this morning from the Appalachian coal community. And 
the question in that testimony was how do we best transition in 
a situation where we have to move from fossil fuel use over to 
renewable energy, and there are going to be dislocated 
communities along the way.
    And it was a very good discussion, but the relationship 
between the Federal Government and the communities of 
Appalachia is different from the relationship between the 
Federal Government and the Native Americans and Alaska Natives.
    And the Ranking Member, in his testimony, made the comment 
that--I think it was somewhere along the lines of--we should 
not require tribes who are undertaking certain practices, for 
example, oil and gas and coal extraction--I think those were 
what he cited--just to solve this problem. I know that is not 
exactly the way he put it, but that was the gist of it to me.
    And the question I have, really, is: If we have to move 
together to actually move away from fossil fuel extraction, how 
do we do that with the indigenous peoples and the relationship 
that we have when we all have to move at the same time?
    For example, what if we tell Appalachia, ``Sorry, we can't 
do coal anymore''? How do we then say to the tribe that is 
doing extraction of fossil fuels, ``You have to join the 
party''? I mean, how do we have that discussion in the 
different relationship the Federal Government has with you?
    Maybe Vice Chair Jose can take a crack at that. I don't 
know if I got the question right. But how do we all get on the 
same wagon here?
    Mr. Jose. Thank you for the question, Congressman.
    I believe in order to get on the wagon all together, it is 
about proactive measures in educating.
    When we talk about fossil fuels, we need to think about 
transportation systems that can work. When we have 2.8 million 
acres of land--well, back in the day, we used to ride horses, 
we used to run from place to place. And, right now, look at the 
amount of cars that are out here, just here in the area. Maybe 
we need to develop systems that will allow us to move without 
using fossil fuels. We need to look at solar, using solar and 
providing funding for some of those things.
    It is all about education and proactive measures. Because 
climate change doesn't discriminate. It is going to affect all 
of us, and maybe the impoverished people more than anyone 
because of lack of resources. So, it is really about education.
    I believe that American cities and towns and Native 
communities are ready to do that, but the challenges are the 
resources. I believe we can get all on the same page, all on 
the same bandwagon if we educate and provide resources to do 
so.
    Mr. Case. Thank you.
    Anybody else have a reaction to my question?
    It really has more to do with the jurisdictional question. 
It has to do with the Federal Government's power and how the 
power is exercised in this particular case, where you are 
trying to get uniformity across the country in terms of a 
transition from one type of energy to another.
    Ms. Jordan. Thank you, Congressman.
    I did want to comment that I believe that climate change is 
an international issue. I used to serve on the Arctic Economic 
Council, which was under the Arctic Council. And the Arctic 
Council really looks at climate change as well as diplomacy 
with other Arctic nations.
    Our biggest problem in the Calista region--we represent 56 
villages--is unemployment. We have about a 26 percent 
unemployment rate. It is the highest in the Nation, I believe. 
I work with folks that are some of the most impoverished people 
in the Nation.
    So, we need economic development to really stimulate the 
area, because there is no infrastructure, there are no roads; 
it is tundra. People use diesel fuel to heat their homes and 
stoves.
    I actually manage a grant called the Chumai grant under the 
Department of Energy, and we provide energy audits to those 
households and are measuring how high and how costly it is to 
have energy out in rural Alaska. And it is because there is no 
infrastructure. There is none. And there are no jobs.
    So, for us, economic development is very, very important. 
And we do use fossil fuels, because that is what is available.
    Thank you.
    Mr. Case. Thank you very much.
    Mr. Gallego. Again, thank you to our panelists.
    Thank you to all the Members that have attended. We will be 
moving to a closing statement.
    I hope we have all gained some valuable insights into the 
real-world effects of climate change on indigenous peoples and 
their communities and what they are doing to combat and adapt 
to those impacts.
    However, tribes are wrongly shouldering too much of the 
burden on this front. The Federal Government must live up to 
its trust responsibility and provide the resources the tribes 
deserve to address climate change impacts.
    In the meantime, as we have heard, tribes are often left 
scrambling to patch together funds from various state and 
Federal grants and to dig deep into their own pockets.
    I know there are proposals already offered by my colleagues 
that would start to address these issues, and I hope that we 
can work together to advance real legislative solutions to what 
we have heard today.
    In closing, let me again thank the witnesses for their 
valuable testimony and time, and the Members for their 
questions.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
those in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these purposes and for the responses.
    If there no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 3:19 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Written Testimony of J. Michael Chavarria, Governor of the Santa Clara 
                                 Pueblo
Introduction
    Thank you Chairman Gallego, Ranking Member Cook, and members of the 
Subcommittee for this opportunity to testify on the critically 
important issue of climate change and its impact tribal communities 
like the Pueblo of Santa Clara. My name is J. Michael Chavarria and I 
am the Governor of the Pueblo of Santa Clara, located in north-central 
New Mexico. I also serve as Chairman of the Eight Northern Pueblos 
Council, Inc. and Vice-Chair of the All Pueblo Council of Governors 
(APCG). In the last decade, Santa Clara has had five Presidential 
Disaster Declarations: three by the request of the State of New Mexico 
and two directly by the Pueblo after the Stafford Act was amended. 
Overall, the ability to directly request Presidential Disaster 
Declarations has given Santa Clara Pueblo greater control over our own 
disaster relief efforts. My community has faced numerous natural 
disasters whose impacts and severity have been heightened, in part, by 
the increasing effects of climate change on our natural environment.
Climate Change Poses an Existential Threat to Our Pueblo Beliefs and 
        Identity
    The Pueblo of Santa Clara is certified as a National Historic 
Landmark under the National Historic Preservation Act (16 U.S.C. Sec.  
470 et seq.; NRHP ref. #74001199). As such, our Pueblo is recognized as 
a finite, irreplaceable resource. The land and its natural resources 
form the essence of who we are as Pueblo People across generations: our 
origin stories are rooted in its geographic features, our contemporary 
life finds sustenance in its flora and fauna, and our future 
generations will shape their identity and dreams in the light of its 
sun-drenched plateaus. This intimate relationship is replicated in 
indigenous communities across the country. For all of us, climate 
change poses a disconcerting and tangible threat to the continued 
existence of our traditional practices and unique cultural identities. 
My testimony focuses on the experience of the Santa Clara Pueblo and 
its multi-generational effort to restore our forests and watershed 
after the devastating Las Conchas wildfire.
Federal Trust Responsibility and Environmental Justice
    The Federal Government has a solemn trust responsibility to protect 
the interests and welfare of pueblos, tribal nations, and Native 
communities--including from the harmful and increasingly dangerous 
effects of climate change. Changes in vegetation cover, the adequacy of 
water supplies, and the frequency and intensity of wildfires, among 
other natural phenomena, impact the short- and long-term well-being of 
our tribal members. In 1994, President Clinton issued Executive Order 
12898, which directs all federal agencies to make achieving 
environmental justice part of their missions. Accordingly, as agencies 
work to fulfill the federal trust responsibility, they must take into 
consideration the drivers and ongoing needs of environmental justice in 
Native communities.
Background on the Las Conchas Wildfire
    Historically, the Santa Clara Canyon and watershed have provided 
timber, pasture, traditional, economic, and recreational resources for 
our Pueblo. The Santa Clara Creek watershed occupies a vast majority of 
our Reservation lands and is home to many of our Pueblo members. Our 
infrastructure, governmental services, and economic activities are 
concentrated in the downstream end of the Creek near its confluence 
with the Rio Grande. Countless traditional cultural sites occupy this 
landscape.
    In the summer of 2011, the Santa Clara Pueblo was devastated by the 
Las Conchas Fire, then the largest wildfire in New Mexico history. 
Although mercifully no lives were lost and no homes at Santa Clara were 
burned, we still saw our traditional and treasured homeland and 
spiritual sanctuary, the Santa Clara Canyon, practically destroyed. It 
is estimated that more than 16,000 acres of our forestlands were 
burned. Together with the lands that we lost in the Oso Complex Fire of 
1998 and the Cerro Grande Fire of 2000, over 80% of our forests and an 
immeasurable part of our cultural heritage has been destroyed.
    In addition, the fire burned thousands of acres of traditional 
lands located outside of our reservation that contain cultural sites 
and resources of great importance to us. This area encompasses our 
lands of origin, the P'opii Khanu--the headwaters of our Santa Clara 
Creek, as well as numerous cultural and traditional sites. In addition, 
the loss of the forest is devastating to wildlife and wildlife habitat, 
recreational resources, and to the purity of our water--which we use 
for irrigation and many traditional purposes. (See Attachment 1 for 
fire impact on Santa Clara watershed.) Throughout this tragedy, the 
Santa Clara People have shown grit and determination to persevere on 
the long road to recovery so that while this generation may never see 
the canyon in its glory again, that will not be said of the next 
generation.
Contribution of Climate Change to the Disaster
    Climate change played a significant role in heightening the 
severity of the Las Conchas fire, along with several factors that 
contributed to its spread. At the time of the fire, it was reported 
that drought conditions in the Southwest caused living trees in the 
canyon to have a lower moisture content than the wood that you would 
typically buy at a lumberyard. This is a result of drought conditions 
in the Southwest that the scientific community continues to associate 
with climate change. In addition, higher temperatures in general create 
more conducive conditions for wildfires. While drought and wildfires 
can be a natural part of life, the severity and frequency of these 
phenomena are intensified by climate change.

    <bullet> According to EPA and National Research Council research, 
            an annual temperature increase of just 1.8+F could result 
            in four times the number of wildfires in New Mexico every 
            year.\1\
---------------------------------------------------------------------------
    \1\ ``The Age of Western Wildfires,'' Climate Central at 9 (Sept. 
2012), available at https://www.climatecentral.org/wgts/wildfires/
Wildfires2012.pdf.

    <bullet> Higher temperatures affect the retention of water in 
            plants and soil, as well as in reservoirs and streams, 
            which creates a more conducive environment for the rapid 
---------------------------------------------------------------------------
            spread of wildfires.

    <bullet> Increasing temperatures also degrade the quality of 
            ecosystems making it difficult for native species to 
            flourish, thus, hindering recovery efforts and leaving the 
            area vulnerable to invasive species.

    Climate change was not the only reason this fire was so 
devastating. The forest had become unhealthy, with excessive 
undergrowth and too great a tree density, making conditions ripe for an 
intense fire that would kill the mature trees. As a part of managing 
the impact of climate change, we must manage the conditions in our 
forests.
Increased Risk of Flooding due to the Fire and Climate Change
    All five of the Pueblo's Presidential Disaster Declarations have 
involved infrastructure damage stemming from catastrophic flash floods. 
Three of the Declarations were made by request of the State of New 
Mexico and two were made by the Pueblo after the Stafford Act was 
amended. Flooding has wiped out existing water control structures 
within the canyon, destroyed once-pristine native cutthroat fish 
habitat, impacted roads, taken away culverts, and damaged the 
traditional cultural properties of our sanctuary.
    Because the Santa Clara Canyon has been stripped of its vegetation, 
the area has a heightened risk of flooding and landslides. Over 50% of 
the Santa Clara Pueblo watershed burned during the Las Conchas fire. 
Because of the high severity of the burn, there has been a dramatic 
reduction in the infiltration rates in the burned area and the soil is 
now what is hydrophobic. This has resulted in a four- to eightfold 
increase in runoff and sediment/debris flow into the Santa Clara Creek, 
posing a threat to the lives and safety of the people of Santa Clara 
Pueblo and increasing the potential for widespread property damage. The 
channel through Santa Clara Pueblo no longer has the conveyance 
capacity necessary to safely pass large post-fire flows. Hundreds of 
residential structures including several public structures are at risk 
from flood and debris flows if no action is taken immediately. (See 
Attachment 2 on the potential flood risk zone to Santa Clara for a 10-
year event.)
    An average monsoon season storm one inch rain event over 8 hours on 
August 21, 2011 led to intense flooding and the emergency evacuation of 
Santa Clara and US Army Corps of Engineer personnel. This rain event 
resulted in a Presidential Disaster Declaration. As the Department of 
the Interior, Interagency Burned Area Emergency Response (``BAER'') 
Team noted, the intense flames from the fire burned trees and 
vegetation off the steep slopes of the canyon and heated the soils 
causing severe damage to the natural resources of the area and placing 
the downstream tribal members of the Santa Clara Pueblo at risk to 
extreme flooding. The post-fire watershed effects were rife for massive 
landslides and debris flows which occurred on August 21, 2011. The 
event produced massive debris (including boulders) and severe mud flows 
to the canyon bottom. The canyon reservoirs were overwhelmed by this 
average rainfall event and filled with sediment. Flood protection 
emergency measures put in place after the Las Conchas fire were inches 
away from being compromised. It is important to note that this storm 
was an isolated thunderstorm over a small portion of the Santa Clara 
watershed (one drainage) and not over the entire watershed. Another 
similar event occurred in July 2012, destroying much of the recovery 
undertaken over the prior year. If the rain event of August 21, 2011 
had occurred over the entire post-fire watershed, our Pueblo would have 
been devastated.
    Further, in November 2013, Santa Clara Pueblo became the first 
tribal government to request and receive federal disaster recovery 
assistance under the National Disaster Recovery Framework (NDRF). The 
Federal Emergency Management Agency used the NDRF to create a 
comprehensive federally-led strategy for the Pueblo to identify all 
possible actions that would build the community's resiliency to future 
flooding. The NDRF provided the Pueblo with an opportunity to 
effectively develop recovery strategies for our respective areas.
Heightened Human Health and Environment Impacts
    The recent natural disasters have raised numerous interrelated 
short and long-term concerns for Santa Clara and nearby tribal 
communities, almost all of which are further complicated by climate 
change. The environmental impacts of the disasters include water 
quality deterioration from ash, debris, and sediment changes that 
affect fisheries, wildlife, flora, and agriculture. The destabilized 
ecosystem also poses a physical safety risk due to erosion and shifting 
or falling trees and boulders. Runoff from the Santa Clara Creek also 
flows into the Rio Grande, which affects downstream communities like 
Santa Fe, Albuquerque, and our neighboring Pueblos who all rely upon 
these waters for municipal water sourcing. Ash contamination and 
sediment transport have impacted these resources, while limiting water 
holding capacity in reservoir facilities. The U.S. Army Corps of 
Engineers has noted that sediment deposition from the Los Conchas Fire 
remains an existential threat to the holding capacity of Cochiti 
reservoir.
    In terms of human health, the effects range from physical impacts 
from the smoke and compromised environmental quality to deep emotional 
strain caused by the unprecedented loss of or damage to our cultural 
and sacred sites. We are still processing how to recover from the loss 
of these places and the diminishment of animal and plant species that 
have been integral to Santa Clara cultural and spiritual practices for 
generations. Further, our community has taken on increased financial 
burdens in response to these disasters and changes in the environment 
to reinforce infrastructure, implement fire suppression measures, and 
support the work of our award winning Santa Clara Pueblo Forestry 
Department, among other expenditures.
Working to Mitigate the Risks of Climate Change at the Pueblo Level
    Santa Clara has a highly regarded Forestry Department, numbering 
some 40 personnel. Santa Clara fire crews and equipment served on the 
front lines of the Las Conchas fire. We have a dedicated commitment to 
the maintenance and restoration of healthy forests on, around, and 
adjacent to the Pueblo. We work diligently to effectively and 
efficiently manage our natural resources for the safety of our 
community and property. For example, our work on installing fuel breaks 
on tribal lands was effective at stopping the spread of the Las Conchas 
fire in those areas. In areas that lacked proper management techniques, 
the land, trees, and wildlife were devastated. In the past decade, we 
have faced four forest fires that have threatened our forests--the Oso, 
Cerro Grande, South Fork and Las Conchas fires--and none of them 
originated on Pueblo lands. Although fate and climate change play their 
part, we have suffered horrible consequences largely due to the failure 
of others to properly guard in some fashion against causing a fire.
Tribal-Federal Partnerships
    For several years, the Pueblo has worked to establish a partnership 
with the U.S. Forest Service under the Tribal Forest Protection Act to 
address the long-term health of Forest Service lands around our 
reservation. Further, the Pueblo is in negotiations with the U.S. Park 
Service to assume responsibility for federal functions in managing the 
Valles Caldera National Preserve, which is adjacent to our Pueblo in 
the Jemez Mountains. Each of these efforts is founded on the desire to 
strengthen tribal sovereignty and advance land management practices for 
the protection of our resources and community. As part of managing the 
impacts of climate change, the Pueblo is and must remain an active 
leader in the management of our forestlands.
Forest Restoration and Recovery
    The Pueblo is also engaged in the complex process of forest 
regeneration and recovery in the canyon with a variety of federal and 
state partners. As we work to develop forest resiliency to the future 
effects of climate change, our efforts have taken into account research 
on the effect of climate change on forest regeneration, including a 
study of the Greater Yellowstone Ecosystem undertaken by the University 
of California--Merced.\2\ The study predicts that the expected rising 
temperatures caused by climate change could increase the frequency of 
large wildfires in Yellowstone to an unprecedented level. The study 
also predicts that the increased occurrence of wildfires will alter 
ecosystems, resulting in ``fewer dense forests and more open woodland, 
grass and shrub vegetation, with forests becoming younger, the mix of 
tree species changing and some forests failing to regenerate after 
repeated fires. This would affect the region's wildlife, hydrology, 
carbon storage and aesthetics. These conditions are already present in 
our forestlands and local ecosystem.
---------------------------------------------------------------------------
    \2\ Please see http://www.ucmerced.edu/news/study-climate-change-
increase-yellowstone-wildfires -dramatically.
---------------------------------------------------------------------------
    Other climate change related stressors are expected to further 
complicate our forest and ecosystem regeneration efforts going forward. 
These include an increased severity of droughts, the introduction and 
proliferation of invasive species, soil degradation, and habitat 
fragmentation. Alone, each of these issues could cause significant 
damage to our fragile ecosystem and watershed. Together, they pose an 
alarming threat to our future. Take the tamarisk, for example. The 
tamarisk, or salt cedar, is an aggressive invasive species that can 
uptake nearly 200 gallons of water per day.\3\ It displaces native 
vegetation and destabilizes local habitats. This directly impacts avian 
and other species that depend on native vegetation for breeding and 
sustenance.\4\ As a result of climate change, the tamarisk is expected 
to expand its geographic distribution throughout the southwest and 
other regions. When compounded by the increasing scarcity of water and 
increasing severity of weather events, tamarisk and other invasive 
species have the capacity to severely hinder forest restoration efforts 
in the Santa Clara Canyon and watershed.
---------------------------------------------------------------------------
    \3\ ``Saltcedar (Tamarix),'' National Riparian Service Team, Bureau 
of Land Management (Dec. 12, 2007), available at https://www.blm.gov/
or/programs/nrst/files/tamarisk_paper.pdf.
    \4\ ``Tamarix spp. In: Fire Effects Information System,'' U.S. 
Department of Agriculture, Forest Service (Feb. 21, 2019), available at 
https://www.fs.fed.us/database/feis/plants/tree/tamspp/all.html.
---------------------------------------------------------------------------
Conclusion
    In New Mexico, and across the Southwest, we have experienced the 
harmful effects of major wildfires, most recently the truly devastating 
Camp Fire in California. The ecosystems and well-being of our 
environment are being dramatically affected and sometimes permanently 
altered with each new occurrence. At the Pueblo of Santa Clara, we need 
only look out from our backyards to see the fundamental changes wrought 
by natural disasters heightened by climate change on the Santa Clara 
Creek and Canyon ecosystems. Never again in our lifetime will we see 
our traditional and treasured homeland and spiritual sanctuary, the 
Santa Clara Canyon, as we have known it. It will take generations for 
our community and lands to recover from the devastation of this fire 
and, because of climate change, it is not clear how that future will 
unfold.
    This is our only homeland; it is the place we have been entrusted 
with since time immemorial. We devote the resources we can to the 
healing of our land and the protection of our community, but we do not 
have the resources to do it alone. The Federal Government must take 
steps to effectively manage the meta-factors that drive climate 
change--such as worldwide deforestation, fossil fuel consumption, and 
greenhouse gas emissions--before it is too late. Acting on climate 
change today is a moral and legal imperative, essential to all of us as 
Pueblo People, Americans, and citizens of this world during a period of 
what now appears to be almost inevitable rapid climate change.

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
  Testimony of United South and Eastern Tribes Sovereignty Protection 
                                  Fund
    On behalf of the United South and Eastern Tribes Sovereignty 
Protection Fund (USET SPF) we write to provide the House Natural 
Resources Subcommittee for Indigenous People of the United States with 
the following testimony for the record of the hearing ``The Impacts of 
Climate Change on Tribal Communities'' held on February 12, 2019.
    USET SPF is an intertribal organization comprised of 27 federally 
recognized Tribal Nations, ranging from Maine to Florida to Texas.\1\ 
USET SPF is dedicated to enhancing the development of federally 
recognized Tribal Nations, to improving the capabilities of Tribal 
governments, and assisting USET SPF Member Tribal Nations in dealing 
effectively with public policy issues and in serving the broad needs of 
Indian people.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    Human-induced climate change will have a lasting impact on Tribal 
lands, waters, and communities across the United States. USET SPF 
Member Tribal Nations have a unique historical experience, which 
factors in climate change impacts as well as options for climate change 
adaption.
South and Eastern Tribal Nations: A Historical Context
    Current broad understanding of Tribal Nations and historical 
context within the United States stems from the 19th century, when the 
United States the country and settlers expanded westward. Tribal 
Nations were forced to sign treaties, cede large tracts of land, and 
reside on reservations yet were promised autonomy and support from the 
federal government to manage natural resources, education, and health 
care. Tribal Nations within the USET SPF region also signed treaties 
and were forced to cede lands. However, many USET SPF member Tribal 
Nations are ``First Contact Nations'' and faced 17th- and 18th-century 
local colonial governments and distant European nations at the onset of 
colonization of North America.
    During the 17th and 18th centuries, colonial wars and disease also 
decimated Indigenous populations. After the United States was 
established, often the lands and rights acknowledged in colonial 
treaties or agreements east of the Appalachians were left to the states 
to either recognize and fulfill obligations or abolish. Within decades 
after establishment of the United States, a federal policy of removal 
was adopted, and many Tribal Nations whose aboriginal territories were 
in the Appalachians, Southeast, and Midwest were forcibly removed to 
western territories. For example, the ``1830 Indian Removal Act'' split 
entire Tribal Nations and families and forced tens of thousands of 
Indigenous people to reservations in Oklahoma.
    USET SPF Tribal Nations, today, have persevered despite 
colonization and federal policies of assimilation, termination and 
other events that have unfolded over the past 400 years. Despite 
disease, warfare, and removal, our Tribal Nations have persisted and 
exhibited profound resilience. In environments considered harsh to 
European and American settlement such as the Gulf Coastal Bayous, the 
Everglades, the Appalachians, or the Northern Forests, Tribal Nations 
not only survived, but adapted and rebounded as communities and 
nations. Tribal communities even integrated into more populated 
landscapes, have maintained self-governance and distinct cultural 
identities tied to cultural and traditional homelands and family 
kinship systems. The 20th century witnessed a rebound in population of 
Indigenous communities within the USET SPF region and a resurgence of 
Tribal voices on a national platform to promote Tribal sovereignty and 
self-determination, management of natural resources on remaining Tribal 
lands that are now mere fractions of once held territories, and the 
restoration of Tribal lands lost to the colonies and early states.
The Fourth National Climate Assessment: Key Messages
    On November 23, 2018, the Fourth National Climate Assessment (NCA4) 
was released by the U.S. Global Change Research Program (USGCRP). 
According to the USGCRP, the report ``focuses on the human welfare, 
societal, and environmental elements of climate change and variability 
for 10 regions and 18 national topics, with particular attention paid 
to observed and projected risks, impacts, consideration of risk 
reduction, and implications under different mitigation pathways.'' The 
report includes a chapter on climate change and Indigenous peoples as 
well as discussion on climate change and Indigenous peoples in other 
regional and sectoral chapters. The NCA4 acknowledges Indigenous 
peoples in the United States as, ``diverse and distinct political and 
cultural groups and populations'' and affirms, ``Though they may be 
affected by climate change in ways that are similar to others in the 
United States, Indigenous peoples can also be affected uniquely and 
disproportionately.'' The NCA4 Chapter 15 ``Tribes and Indigenous 
Peoples,'' provides three key messages regarding climate change impacts 
and Indigenous peoples. The key messages are listed below with 
subsequent comments pertaining to Tribal Nations within the USET SPF 
region.

    Key Message 1: Climate change threatens Indigenous peoples' 
livelihoods and economies, including agriculture, hunting and 
gathering, fishing, forestry, energy, recreation, and tourism 
enterprises. Indigenous peoples' economies rely on, but face 
institutional barriers to, their self-determined management of water, 
land, other natural resources, and infrastructure that will be impacted 
increasingly by changes in climate.

    Tribal Nations across the United States have regained the 
management of natural resources for over 100 million acres of Tribal 
lands. However, USET SPF member Tribal Nations have substantially 
smaller Tribal land bases from which to assert direct jurisdiction and 
management of natural resources. This means our Tribal Nations must 
work with state, municipal, and non-Tribal federal jurisdictions to 
address climate change impacts on natural resources of cultural and 
economic significance beyond Tribal lands. Institutional barriers arise 
as the interests and management plans of non-Tribal jurisdictions often 
do not align with Tribal priorities or cultural values at best, or at 
worst, Tribal Nations are not even included in local and regional plans 
that would have implications on their natural resources and areas of 
cultural significance. Often fish and wildlife, wild foods, medicinal 
plants, and places of cultural significance, some of which may be 
outside of Tribal reservation or trust lands, are impacted by climate 
change. For some USET SPF Tribal Nations, the Tribal reservation or 
trust lands have been reduced to one square mile or smaller, and 
climate change impacts to these vulnerable land bases pose serious 
threats to Tribal cultures and lifeways. Finally, one of the greatest 
threats of climate change will be migration of species and shifting of 
ecosystems beyond Tribal lands or even beyond Tribal regions, rendering 
the fixed political boundaries and territories of present day Tribal 
lands unconnected to long held traditional lifeways.

    Key Message 2: Indigenous health is based on interconnected social 
and ecological systems that are being disrupted by a changing climate. 
As these changes continue, the health of individuals and communities 
will be uniquely challenged by climate impacts to lands, waters, foods, 
and other plant and animal species. These impacts threaten sites, 
practices, and relationships with cultural, spiritual, or ceremonial 
importance that are foundational to Indigenous peoples' cultural 
heritages, identities, and physical and mental health.

    Many of the places that have significance to the cultural 
heritages, identities, and physical and mental health of Indigenous 
peoples from Tribal Nations within the USET SPF are located off Tribal 
reservation or trust lands. In many instances, places of cultural 
significance are now located within national parks, monuments, wildlife 
refuges, and sea shores, or state parks, forests, or private lands. 
While climate change impacts the ecosystems, water, and landscapes of 
these places, our Tribal Nations continue to struggle with non-Tribal 
jurisdictions for access to these places for activities of cultural, 
spiritual, or ceremonial importance. USET SPF member Tribal Nations and 
their citizens often find themselves in a position of having to request 
access to locations of cultural significance to partake in cultural 
activities they have been engaging in for thousands of years. Loss of 
access to these places impacts both the physical and mental health of 
Indigenous peoples and has been doing so for many years. Climate change 
impacts do threaten sites, practices, and relationships with cultural, 
spiritual, or ceremonial importance which are foundational to 
Indigenous peoples, yet current barriers to access and a lack of a 
meaningful role in the climate adaptation planning process of these 
areas compounds the issue.
    Key Message 3: Many Indigenous peoples have been proactively 
identifying and addressing climate impacts; however, institutional 
barriers exist in the United States that severely limit their adaptive 
capacities. These barriers include limited access to traditional 
territory and resources and the limitations of existing policies, 
programs, and funding mechanisms in accounting for the unique 
conditions of Indigenous communities. Successful adaptation in 
Indigenous contexts relies on use of Indigenous knowledge, resilient 
and robust social systems and protocols, a commitment to principles of 
self-determination, and proactive efforts on the part of federal, 
state, and local governments to alleviate institutional barriers.

    The impacts of the 2012 northeastern summer drought and heat wave 
as well as coastal flooding from Hurricane Sandy respectively prompted 
the St. Regis Mohawk Tribe and the Shinnecock Indian Nation to complete 
climate change adaptation plans for their Tribal lands, waterways, and 
communities. Other Tribal Nations within the USET SPF region have 
followed suit through exploring climate change adaptation options and 
opportunities to fund climate change adaption activities. Often 
departments within Tribal Nations such as natural resource or cultural 
preservation departments take the lead, but not exclusively as Tribal 
emergency management or economic development programs have also 
explored climate adaptation options. The same institutional barriers of 
limited jurisdiction and access to traditional territory or places of 
cultural significance remain factors in Tribal climate adaptation 
planning. Funding climate change adaptation also remains a challenge 
because federal natural and cultural resources funding can be very 
sector, species, or place specific whereas Tribes are concerned about 
the health of the whole system. Many Tribal managers are in the 
position of pursuing multiple grants and searching for funding from 
different sources with varying objectives required in order to address 
larger climate change impact on their Tribal Nations. Federal funding 
for climate change adaptation is also at the whims of United States 
executive and congressional political power shifts. Opportunities 
available this year may not be available next, hobbling a consistent or 
long-term climate change adaption plan.

    Climate change adaptation may also mean placing lands into trust to 
provide communities safety from sea level rise and to provide Tribal 
Nations access to species of cultural importance whose ranges have 
shifted due to climate change. 21st century court cases, such as the 
2009 Carcieri decision with the Narragansett Indian Tribe and the 
Littlefield et al. 2016 with the Mashpee Wampanoag Tribe, challenge the 
ability of Tribal Nations to have lands taken into Trust by the Bureau 
of Indian Affairs even when those lands are on cultural domains or 
aboriginal Tribal territories. Thus, if a location becomes 
uninhabitable or ecosystems with cultural significance shift due to 
climate change Tribal Nations face difficulties if adaptation responses 
mean to relocating or re-acquiring lands that provide access to 
cultural resources.
Conclusion
    Successful adaptation for USET SPF member Tribal Nations will rely 
on use of Indigenous knowledge, resilient and robust social systems and 
protocols, and a commitment to principles of self-determination. 
However, it will also require the acknowledgment from federal, state, 
and local governments that the impacts of early colonial and United 
States history have created many of the institutional barriers USET SPF 
member Tribal Nations face today in adapting to climate change. Should 
you have any questions or require further information, please contact 
Mr. Kitcki Carroll, USET SPF Executive Director, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b60684a59594447476b5e584e5f4245480544594c">[email&#160;protected]</a> or 615-495-2814.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
